<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2017</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]




 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2017

                              ----------                              


                      THURSDAY, FEBRUARY 25, 2016

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 10:30 a.m., in Room SD-192, Dirksen 
Senate Office Building, Hon. Richard C. Shelby (chairman) 
presiding.
    Present: Senators Shelby, Collins, Graham, Boozman, Capito, 
Lankford, Mikulski, Feinstein, Shaheen, Coons, Baldwin, and 
Murphy.

                         DEPARTMENT OF JUSTICE

                     Office of the Attorney General

STATEMENT OF HON. LORETTA E. LYNCH, ATTORNEY GENERAL

             OPENING STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. The subcommittee will come to order.
    Madam Attorney General, welcome again to this Commerce, 
Justice, Science Appropriations Subcommittee hearing, where we 
will be examining the Department of Justice fiscal year 2017 
budget request.
    Today, the subcommittee will continue the important 
responsibility of reviewing spending at the Justice Department 
to ensure that it has the necessary resources to carry out 
national security and law enforcement missions.
    Last month, you testified before this subcommittee about a 
set of executive actions recently issued by the President 
regarding gun control. At that time, I, along with other 
subcommittee members, expressed deep concerns about the 
constitutionality of key aspects of these executive actions.
    The President's 2017 budget request for the Department of 
Justice submitted a few weeks after that hearing has paid no 
heed to a lot of our concerns.
    The President proposes to increase spending at the 
Department of Justice by $802 million in 2017, for a new total 
of $29.9 billion. This includes $66 million in additional 
funding for the Bureau of Alcohol, Tobacco, Firearms and 
Explosives for 200 new positions, 80 special agents, and 120 
industry operations investigators. I continue to have 
significant reservations about the potential abuses and 
harassment of law-abiding gun owners and purchasers that could 
result from bringing on these additional agents and 
investigators.
    In addition, I expressed to you at our hearing in January 
my apprehension about the President's Clemency Initiative, 
given the numerous examples of sentences that have been 
commuted for criminals with firearms convictions. You pledged 
to review this situation and get back to the subcommittee on 
this troubling topic. I am still waiting for your response. Yet 
the Department's budget request for the Office of Pardon 
Attorney includes $2.8 million to increase staffing for pardon 
and commutation petition reviews.
    I find it hard to believe that the President could 
spotlight his commitment to reducing gun violence in America 
when his administration is granting clemency petitions for 
criminals convicted of gun crimes.
    In another area, I note that spending for the Bureau of 
Prisons increases by $238 million above 2016 levels, despite 
another projected reduction in our Federal prisoner population, 
which continues to decline. I hope you can shed some light this 
morning on why our prison budget continues to increase instead 
of demonstrating savings and cost reductions at a time when we 
have fewer Federal prisoners.
    When it comes to law enforcement activities, 
counterterrorism and cybersecurity remain top priorities of 
this subcommittee. The massive recent cyber breach of the 
Office of Personnel Management computer network compromised the 
personal information of approximately 25 million Americans. 
That is an astounding number and reminds us what is at stake if 
the Federal Government is not prepared to combat cyber threats, 
both offensively and defensively.
    The Department requests an increase of $121 million for 
combating cyber threats, which includes $85 million for the 
FBI, $8 million for DEA, and $26 million for the Department of 
Justice Information Sharing Technology account.
    Despite the noteworthy funding increases for cybersecurity, 
I am disturbed by proposed cuts to other national security 
activities.
    Finally, when it comes to counterterrorism, I was dismayed 
by the President's announcement on Tuesday of his plans to 
close the Guantanamo detention facility. This announcement came 
on the same day that Spanish and Moroccan police arrested four 
terrorist recruiters that included a former Guantanamo detainee 
who once fought with militants in Afghanistan.
    Current law prohibits the terrorists held at Guantanamo 
from being transferred onto U.S. soil. I am left wondering what 
advice you possibly could have given the President that would 
make such a move legal.
    I will highlight more specific topics in my questions, but 
I appreciate your being here today, and I look forward to your 
testimony.
    Senator Mikulski.

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Thank you very much, Mr. Chairman.
    And really a most cordial welcome to the Attorney General, 
Loretta Lynch. I look forward to hearing the Attorney General's 
testimony about the needs of the Justice Department and its 
impact on meeting the needs of the American people to be safe 
and to be secure.
    When we look at the many demands on the Department of 
Justice, they range from dealing with international efforts 
related to terrorism to the practices of organized crime, as 
much as drugs and cybersecurity.
    We really want to thank all of the people who work at the 
Justice Department, those who carry the guns and those who 
carry the Constitution. Actually, they all carry the 
Constitution there. And we really thank them for their work 
that they do every day in every way.
    I know Senator Shelby and I are committed to regular order 
in trying to move this subcommittee's appropriation, working 
also with Senator Cochran so that we do not get into sequester 
or all of those big tensions at the end.
    So we look forward to hearing your testimony, so that we 
can move it.
    I also want to particularly thank you on behalf of the 
citizens of Baltimore for your leadership during our Baltimore 
uprisings. Your work with the elected leadership, law 
enforcement, community leaders, and faith leaders was really 
enormously helpful, and for really helping us to enforce the 
law, living by law and order, for we must live by the law. A 
unique form of technical assistance was provided to us that 
helped our police department, but also helped our citizens, and 
now also helps our citizens have confidence in the police 
department.
    We know we have a long road to go on that. But I want to 
particularly thank you, as we try to rebuild the trust between 
police and the communities they serve.
    I know that this is faced in other parts of the country. 
That is why, in fiscal year 2016, working with Senator Shelby, 
we looked at how we could help modernize many of those efforts. 
So that is one issue.
    The other issue that I am particularly interested in, and I 
know my colleagues are, particularly Senator Shaheen, is the 
scourge of heroin in our communities. As I look around here, we 
have excellent bipartisan attendance, and I would say that 
every single one of us is facing a heroin crisis in our State, 
whether rural, urban, et cetera.
    We really need to come to grips with this. In my own home 
State last year, my State of Maryland, 5.5 million people, we 
had over 578 heroin deaths. I mean, this is just stunning.
    So whether we are rural, urban, or suburban, we just cannot 
enforce our way out of this crisis. We need to break the cycle 
of addiction for drug users. We need to crack down on the big 
dealers and traffickers. And we also need to engage in 
preventive strategies.
    I know, on February 2, the President announced $1.1 billion 
in funding to tackle the heroin and opioid crisis with most of 
the funding going to Health and Human Services and the Justice 
Department. We look forward to hearing from you on this.
    Also, we want to make sure that the FBI has the tools it 
needs. We thank you for what has been going on to give them the 
physical facilities they need.
    But this subcommittee and I believe that we do have to live 
by the Constitution. I know we will be talking about guns in 
this hearing, and I support the Second Amendment. I also 
support the Fourth Amendment right against unwarranted searches 
and seizures. So I look forward to hearing how voluntarily we 
might be able to break through this Apple-FBI standoff.
    I also support Article II, Section 2 of the Constitution 
that says that the President has the authority to nominate a 
Supreme Court Justice up until his last day of office.
    Every day, we count on the Justice Department to fulfill 
its vital mission. And I want you to know, again, I support all 
115,000 employees, many of whom live in my home State of 
Maryland.
    So rather than me talking in more detail, we want to hear 
from you. But most of all, we really want to work on a 
bipartisan basis to keep America safe and keep it safe under a 
constitutional government.
    That completes my remarks.
    Senator Shelby. Madam Attorney General, your written 
testimony will be made part of the record in its totality. You 
may proceed as you wish.

               SUMMARY STATEMENT OF HON. LORETTA E. LYNCH

    Attorney General Lynch. Thank you, Mr. Chairman. Mr. 
Chairman and Vice Chairman Mikulski, and all the distinguished 
members of the subcommittee, with whom I have had the pleasure 
of working with on so many important issues, it is an honor to 
appear before you today to continue our dialogue about how we 
best protect the American people.
    I am grateful for this opportunity to discuss the 
President's fiscal year 2017 budget for the Department of 
Justice. This budget reflects our enduring commitment to 
creating a stronger Nation and more empowered communities that 
every American deserves.
    In the last year, thanks to the thousands of dedicated men 
and women who serve the Department of Justice, and thanks to 
the ongoing support of this distinguished subcommittee, we have 
taken tremendous steps toward that goal. We have prosecuted 
violent extremists and dangerous criminals. We have defended 
the integrity of our markets and the beauty of our natural 
resources. We have worked to end human trafficking, to disrupt 
the flow of illegal drugs and weapons, and to eradicate 
international corruption. And we have created new opportunities 
for second chances in our justice system and new foundations of 
trust in our cities and towns.
    These are real and meaningful achievements, and the 
requests set forth in the President's fiscal year 2017 budget 
request will allow us to build upon this encouraging progress.
    As always, the Justice Department's first and most 
important priority is the safety and the security of the 
American people. The President's budget would invest an 
additional $781 million in our national security capabilities, 
including in critical measures to address the evolving 
challenges like homegrown extremism, online radicalization, and 
increasingly sophisticated encryption.
    Now, among other items, that request also contains funds 
for a new state-of-the-art FBI headquarters, which would reduce 
inefficiencies. It would streamline internal communications, 
and it would significantly boost our ability to thwart the 
emerging criminal and terrorist threats.
    It devotes an increase of $63 million to reinforcing our 
intelligence-sharing capabilities, allowing us to more rapidly 
coordinate with both our Federal partners and our counterparts 
overseas.
    And it directs $38 million toward developing the tools that 
we need to lawfully access encrypted data and communications, 
so that we can successfully investigate and prosecute criminals 
and terrorists who attempt to hide the evidence of their 
crimes.
    Now, as we have seen recently, this is not a theoretical 
issue. As we have made clear, the growing dark problem is a 
very real threat to law enforcement's mission to protect public 
safety and to ensure that criminals are caught and held 
accountable.
    It is a longstanding principle in our justice system that 
if an independent judge finds reason to believe that a certain 
item contains evidence of a crime then that judge can authorize 
the Government to conduct a limited search for that evidence. 
If the Government needs the assistance of third parties to 
ensure that the search is actually conducted, judges all over 
this country and on the Supreme Court have said that those 
parties must assist, if it is reasonably within their power to 
do so.
    That is what we have been asking for. And we owe it to the 
victims and the public whose safety we must protect to ensure 
that we have done everything under the law to fully investigate 
terrorist attacks on American soil.
    Now, of course, as technology continues to evolve, we are 
also focused on stepping up our work against those who attempt 
to use the Internet to attack America's infrastructure, to 
steal our trade secrets, and jeopardize the privacy and 
property of everyday citizens. Accordingly, the fiscal year 
2017 budget would dedicate $121 million in additional resources 
to investigating cybercrimes and to fortifying the Justice 
Department's vital information networks.
    Now, the majority of those resources, $85 million, would be 
used to enhance the FBI's capacity to collect and analyze 
digital evidence, and to increase the overall number of cyber 
investigations. Together, this important funding will allow us 
to keep pace with the fast-changing landscape of cybercrime.
    Our commitment to protecting the American people is matched 
by our dedication to ensuring that they benefit from a criminal 
justice system that is fair, efficient, and responsive. The 
fiscal year 2017 budget requests an increase of $247 million 
for one of our most successful and groundbreaking undertakings 
in that area, the Smart on Crime Initiative, which encourages 
alternatives to incarceration for low-level nonviolent 
offenders, which eases overcrowding in correctional facilities, 
and frees precious resources for the prevention and the 
deterrence of the most serious crimes.
    Of that total Smart on Crime request, $184 million will go 
to the Bureau of Prisons reentry, rehabilitation, and mental 
health programming, which are all essential components of our 
work to help formerly incarcerated individuals make the most of 
their second chance while also ensuring that our communities 
stay strong and safe, because those are the kinds of 
communities that we seek for every American.
    And they require bonds of trust and respect between law 
enforcement officers and the people that we serve. Helping to 
repair those bonds where they have frayed is one of my top 
priorities as Attorney General. The President's request 
reflects that focus with an increase of $25 million in a number 
of programs designed to foster collaboration between residents 
and law enforcement, including racial reconciliation and 
restorative justice initiatives, as well as improved data 
collection. It includes additional funds for the Department's 
Smart Policing program, which encourages local jurisdictions to 
improve police-citizen interactions while developing cost-
effective solutions to crime in their communities.
    And it enlarges our investment in the Community Oriented 
Policing Services hiring program. This program extends funding 
to State and local departments to hire or retain officers, so 
they can continue to meet the full range of their constituent 
needs.
    Those of us who work in law enforcement have a special 
responsibility to protect the most vulnerable among us, and few 
crimes pray more savagely on the vulnerable than human 
trafficking, which destroys families, which weakens 
communities, and erodes our society's basic foundations of 
decency and security. The fiscal year 2017 budget sets aside 
$89.3 million for the department's efforts to combat this 
scourge, including $45 million for efforts to help the victims 
of trafficking rebuild their lives and reclaim their futures.
    We have also resolved that each and every one of our young 
people should grow up in safety and security, which is why the 
budget includes a net increase of over $64 million for the 
Office of Justice Program grants, or OJP, as we call it, 
focused on juvenile justice and at-risk youth, including an 
increase of $25 million for the delinquency prevention program, 
which seeks to prevent young people from entering the criminal 
justice system in the first place by providing assistance and 
guidance as early as possible.
    I look forward to working with this subcommittee and with 
Congress to ensure the timely passage of the President's 
budget, which asks for a total of $29 billion in discretionary 
funding for the Department, including $27 billion for Federal 
programs and $2 billion for State, local, and tribal assistance 
programs.
    This level of funding will ensure that the outstanding men 
and women of the Department of Justice, who I am so proud to 
lead, can continue their tireless work to protect America's 
citizens, to defend America's values, and to strengthen all of 
America's communities in the months and years ahead.
    Thank you once again for the opportunity to appear before 
you today and to work with you in the future, and I am happy to 
answer any questions.
    Thank you, Mr. Chairman.
    [The statement follows:]
              Prepared Statement of Hon. Loretta E. Lynch
    Good morning, Chairman Shelby, Vice Chairwoman Mikulski, and other 
distinguished members of the subcommittee. I am honored to appear 
before you today to present the President's fiscal year 2017 budget for 
the Department of Justice, as well as highlight the excellent progress 
the Department has made over the past year. The Department looks to 
build on our successes and continue progress on the most pressing 
issues affecting our communities and our citizens.
    The President's fiscal year 2017 budget requests $29 billion in 
discretionary authority for the Department of Justice (the Department 
or DOJ), including $27 billion for Federal programs and $2 billion for 
State, local, and tribal assistance programs. This is a $265 million 
increase over our fiscal year 2016 enacted funding level. The 
Department's fiscal year 2017 budget proposal supports Federal law 
enforcement priorities and the criminal justice priorities of our 
State, local, and tribal law enforcement partners. The request 
represents a comprehensive investment in the Department's mission and 
includes increases in funding for countering violent extremism and 
other national security areas, civil rights and advancing equality 
under the law, Smart on Crime activities, including increased funds for 
prisoner reentry initiatives, and other key enforcement initiatives.

    The key DOJ funding priorities include:

  --Security of the country and safety of the American people.--The 
        budget invests an additional $781 million to counter violent 
        extremism, improve intelligence gathering, strengthen foreign 
        partnerships, and address the issue of Going Dark.
  --Investigating and prosecuting cybercrimes and countering cyber 
        threats.--The budget provides an additional $121 million to 
        investigate and address computer intrusions and cybercrimes, 
        secure the Department's critical information networks, and 
        protect against insider threats.
  --Augment the ``Smart on Crime'' initiative to continue to focus 
        Federal criminal justice resources effectively.--The budget 
        invests an additional $247 million in the Smart on Crime 
        initiative, which focuses resources on the most important law 
        enforcement priorities, reduces disparate impacts of the 
        criminal justice system on vulnerable communities, and 
        prioritizes crime prevention and recidivism reduction programs.
  --Building trust between law enforcement and the communities they 
        serve.--The budget includes an increase of $129 million to 
        further the efforts the Department and its State and local law 
        enforcement partners have made to build and sustain community 
        trust. Through the Office of Community Oriented Policing 
        Services (COPS), the Community Relations Service (CRS), the 
        Civil Rights Division (CRT), and the Office of Justice Programs 
        (OJP), the Department provides law enforcement with access to 
        the tools and support they need to do their jobs safely and 
        effectively.
  --Protecting citizens and addressing threats as they emerge.--The 
        budget requests an additional $164 million in investments to 
        investigate and hold accountable those who break Federal laws 
        and harm innocent citizens. This enhancement aims to combat 
        violent crime and the increase in illicit drug use such as 
        heroin, and strengthens the litigating divisions of the 
        Department.
  --Protecting the Nation's most vulnerable populations.--The budget 
        will provide an additional $81 million in funds to ensure the 
        rights and opportunities of the elderly, youth, and tribal 
        populations, among other vulnerable groups in our society. This 
        includes expanding civil and criminal litigation, providing 
        support through grants, training, and technical assistance, and 
        issuing guidance and regulations.
  --Improving access to justice in both criminal and civil courts 
        nationwide.--The budget includes an increase of $21.5 million 
        to conduct research and build the Department's capacity to 
        assist the States in improving their justice systems. Through 
        the Office of Justice Programs and the Office for Access to 
        Justice, the Department provides grants and technical 
        assistance to jurisdictions to help justice systems work more 
        fairly and efficiently by expanding access to counsel to low-
        income people.
  --Address gaps in critical Department infrastructure.--The budget 
        invests an additional $179 million to protect DOJ's critical 
        information systems and information from attack and 
        exploitation. Enhancements include facility construction, 
        network improvements, and additional staff.
  --Partnerships with State, local, and tribal entities.--The budget 
        provides $4.7 billion in discretionary and mandatory funding 
        for State, local, and tribal law enforcement assistance whereby 
        the Department maintains its commitments to its partners 
        without reducing its Federal operational role. Simultaneously, 
        efficiencies are identified to ensure that Federal resources 
        are being targeted to the most effective grant programs.
  --Protecting citizens in Indian Country.--The budget requests $418 
        million in total resources for support activities across many 
        DOJ components that address a range of criminal and civil 
        justice issues facing Native American communities. The 
        Department is requesting additional resources to facilitate 
        tribal access to critical information sharing systems, 
        strengthen enforcement of environmental laws on tribal lands, 
        and support consultation with tribes and coordination of tribal 
        policies through the Office of Tribal Justice (OTJ).
        national security and the safety of the american people
    National security remains the Department's highest priority. The 
Department will always maintain its commitment and its responsibility 
to safeguard American citizens and defend the homeland, while 
maintaining American values. Threats are constantly evolving, requiring 
additional investments to adapt to those threats in innovative ways. In 
fiscal year 2015, the Federal Bureau of Investigation (FBI) opened more 
than 9,000 cases, of which approximately 1,100 were national security 
cases. During fiscal year 2015, the FBI's efforts resulted in over 
27,000 arrests and more than 14,000 convictions. The fiscal year 2017 
request continues to support a comprehensive national security strategy 
towards countering violent extremism (CVE) in U.S. communities. The 
recent tragedy in San Bernardino demonstrates the gravity of this 
threat, and the Department is committed to addressing it.
    The fiscal year 2017 budget will enable the Department to continue 
to respond to evolving threats by providing $781 million in program 
increases for five critical national security areas: (1) a new FBI 
headquarters; (2) countering violent extremism; (3) information sharing 
with the Intelligence Community (IC) and integrating new and enhanced 
biometric technologies into operations; (4) strengthening foreign 
partnerships and building new ones; and (5) addressing the Going Dark 
threat.
    Today's national security and crime threats require that the FBI 
maintain an interconnected and nimble workforce. The complexities of 
today's national security work dictate that the FBI be in an 
interconnected workspace to promote internal information sharing. A 
new, modern FBI facility will consolidate disparate worksites into one 
common location and exploit synergies previously stovepiped in the FBI. 
The men and women of the FBI are critical to protecting national 
security, and this request demonstrates our commitment to invest in 
their safety and provide them with an appropriate environment conducive 
to their important work.
    The Department requests an increase of $17 million to deter 
radicalization and violent extremism within the United States through 
locally driven prevention and intervention efforts and research. 
Supported by COPS and OJP grants, the Department will foster community-
led CVE efforts, conduct research on the causes of domestic 
radicalization and strategies for effective intervention and 
prevention, and emphasize trusted partnerships between public safety 
agencies and local residents and community organizations. Additionally, 
the U.S. Attorneys' Offices will expand their community presence 
through Community Resilience Coordinators, and enhance Federal 
engagement with and support to local communities as part of the CVE 
initiative. These efforts will work to counter violent extremism 
espoused by both international and homegrown actors.
    To maintain its role as a national security leader, the Department 
requests an increase of $63 million in fiscal year 2017 to continue to 
address worldwide threats by enhancing its intelligence capacity and 
capabilities and strengthening coordination with foreign partners. The 
requested funding will enhance collaboration with the IC through 
leveraging the IC Information Technology Enterprise (IC ITE) components 
and services. IC ITE lays the groundwork that will enhance the FBI's 
ability to share information through improved infrastructure, 
capabilities, business operations, governance, oversight, and strategic 
partnerships. The request also supports critical operational funds for 
the FBI's new Biometric Technology Center (BTC).
    The Department is committed to building new foreign partnerships 
and improving existing ones. The budget request includes $16 million in 
additional funding to enhance technical assistance and training, as 
well as transform the manner in which DOJ provides legal assistance to 
its international partners. In particular, the Criminal Division will 
receive an additional $10 million in support of efforts to reform the 
Mutual Legal Assistance Treaty (MLAT) process. To protect our national 
security, we must transform the manner in which we conduct 
international mutual legal assistance in criminal and counterterrorism 
matters.
    Through the International Criminal Investigative Training 
Assistance Program (ICITAP) and the Office of Overseas Prosecutorial 
Development Assistance and Training (OPDAT), DOJ plays a central role 
in policy formulation, strategic development, and implementation of 
global assistance programs that further U.S. national security 
interests. The fiscal year 2017 funding request will provide a 
permanent base budget for ICITAP's and OPDAT's headquarters operations 
to allow the Department to continue and expand its important work in 
this arena.
    As an integral U.S. source for international law enforcement 
intelligence, INTERPOL Washington is experiencing a large increase in 
demand from State, local, tribal, Federal, and international agencies 
for services and assistance due to significant increases in 
transnational crime and the threat of international terrorism. The 
requested funding increase of $1.4 million will enable INTERPOL 
Washington to hire additional employees and contractor support to 
process the increase in query traffic over the past 5 years and 
expected future growth in traffic. Accurate and timely processing of 
incoming requests is critical to INTERPOL's ability to provide timely 
investigative support to our foreign and domestic law enforcement 
partners.
    As technology and the means by which people communicate advance, 
the law enforcement community continues to lack the necessary tools to 
track dangerous criminals and terrorists. Law enforcement must adapt to 
evolving communication technologies, anonymization, and encryption. As 
a result, the law enforcement community faces an increased threat of 
Going Dark: the degradation of law enforcement's ability to lawfully 
access, collect, and intercept real-time communications and stored 
data. The FBI will use $38 million in funding to develop and acquire 
tools for electronic device analysis, cryptanalytic capability, and 
forensic tools to address the threat Going Dark poses to law 
enforcement and national security.
        combating cybercrime and countering cyber threat actors
    Cybercrimes are becoming more common, more sophisticated, and more 
dangerous. Our adversaries increasingly use computers and the Internet 
to further their illicit activities and threats to our security, 
welfare, and our way of life. The significant intrusions of private 
sector and government networks over the past 2 years, including the 
breaches into the Office of Personnel Management, have highlighted the 
increasing capabilities of these cyber actors. Safeguarding our 
essential information networks and the personal and private data that 
they hold is a top priority, and the Department is using every tool at 
its disposal to work proactively, respond swiftly, and adapt constantly 
to this threat.
    The fiscal year 2017 budget provides $121 million in additional 
resources to investigate and address computer intrusions and 
cybercrimes, defend the security of the Department's critical 
information networks, and protect against insider threats. The majority 
of this request provides $85 million in additional funding to enhance 
the technical capabilities of FBI investigative personnel, increase the 
number of cyber investigations, and improve cyber collection and 
analysis. The requested funding will build on the progress and 
development of the FBI's cyber efforts.
    An additional $2 million is requested for OJP's Cybercrime and 
Intellectual Property Enforcement Program--for a total of $15 million--
to support efforts to combat economic, high technology, and Internet 
crimes, including the intellectual property crimes of counterfeiting 
and piracy. The program will also support crime analysis and delivery 
of evidence-based crime fighting technology--including information 
sharing systems, software and hardware development, mobile 
communications to support law enforcement, and reentry offender case 
management systems--through grants, training, and technical assistance.
    The fiscal year 2017 budget request includes an $8 million increase 
for the Drug Enforcement Administration (DEA) to enhance its cyber 
security posture. Requested funding will establish an insider threat 
program as mandated by Executive Order 13587, as well as build 
additional capability and capacity to monitor DEA's increasingly large 
and complex classified and sensitive information systems for threats 
that could degrade DEA operations. Additionally, a $26 million increase 
is included for Justice Information Sharing Technology (JIST) to 
maintain and strengthen the Department's cyber security environment to 
counter cyber threats and to ensure our personnel have unimpeded access 
to the IT systems, networks, and data necessary to achieve their 
missions.
              building upon the smart on crime initiative
    In early 2013, the Justice Department launched a comprehensive 
review of the criminal justice system in order to identify reforms that 
would ensure Federal laws are enforced fairly and, in an era of reduced 
budgets, efficiently. The Smart on Crime initiative focuses Federal 
resources and places the harshest sentences on the most serious 
offenders rather than prioritizing the sheer number of prosecutions. 
Prioritizing crime prevention and recidivism reduction strengthens our 
justice system and places a lower financial burden on the budget so 
that funds can be spent on other essential public safety priorities.
    Of the $247 million requested in program increases for the Smart on 
Crime initiative in fiscal year 2017, $91 million is dedicated to 
reentry- and recidivism-reducing programs at the Bureau of Prisons 
(BOP). More specifically, this funding will expand programming to 
strengthen familial bonds, fund innovative reentry programs, increase 
Residential Reentry Center bed space capacity, and provide additional 
vocational and education training. At U.S. Attorneys Offices, an 
additional $5 million will support prevention and reentry coordinators 
in 53 districts. Additionally, OJP will use a $57 million increase to 
expand several key grant programs, to include its Residential Substance 
Abuse Treatment program and Second Chance Act grants with a goal of 
reducing recidivism rates.
    As the President has stated, reducing recidivism requires paying 
more attention to the mental and physical health of inmates. BOP will 
use $93 million for mental health treatment in the general inmate 
population, as well as at Residential Reentry Centers and other 
resources in Special Housing Units and Special Management Units. The 
enhancements will also be used for expanding Hepatitis C treatment, 
medically assisted treatment for individuals in the justice system 
dependent on opioids, and sex offender cognitive behavioral treatment. 
These enhancements reflect the President's directive to improve 
restrictive housing options by expanding mental health treatment 
options.
        building community trust and strengthening relationships
    Through the events involving adverse and sometimes tragic 
interactions between law enforcement officers and members of their 
communities over the past year, it is clear that the Department of 
Justice plays a role in strengthening the partnerships between 
community members and law enforcement professionals at every level of 
government. The Department is making good on its pledge to provide law 
enforcement with access to the tools and support they need to do their 
jobs as safely and effectively as possible. The President's Task Force 
on 21st Century Policing unanimously developed nearly 60 
recommendations to pave the path toward the administration's two-part 
goal of crime reduction and building trust between law enforcement and 
local communities.
    Law enforcement culture should build trust and legitimacy both 
within agencies and with the public. Toward that end, law enforcement 
agencies should adopt procedural justice as the guiding principle for 
internal and external policies and practices to guide interactions 
between law enforcement officers and the communities they serve. The 
fiscal year 2017 budget includes an additional $63 million to advance 
the President's Community Policing Initiative through OJP and COPS. The 
budget invests $20 million in the Procedural Justice--Building 
Community Trust program, which focuses on enhancing procedural justice, 
reducing bias, and supporting racial reconciliation in the criminal and 
juvenile justice systems. The Department's Smart Policing Program 
includes $15 million in additional funds to improve police-citizen 
interactions while developing economical solutions to crime problems in 
their communities. This program includes the Body-Worn Camera (BWC) 
Partnership Program, which provides an additional $8 million in grants 
covering up to half the cost of purchasing body-worn cameras for State 
and local law enforcement.
    The law enforcement community has a unique opportunity to ensure 
fairness, advance bias-free policing, and strengthen community 
engagement and trust. The Department will tailor its efforts to the 
needs of the communities it serves through CRS, CRT, and OJP, with an 
increase of $25 million to further such initiatives. CRS will implement 
racial reconciliation and restorative justice programs that address the 
lack of mutual trust between minority communities and law enforcement 
agencies; fund assistance to local agencies with potentially volatile 
minority communities; and invest in research on best practices for 
building collaborative efforts between law enforcement and the 
communities they serve. With the additional funding, CRT will augment 
its staff and expand its capacity to address cases involving the rights 
of children and people with disabilities who come into contact with the 
justice system. OJP's request supports its National Crime Statistics 
Exchange Initiative (NCS-X), which will collect and report crime 
statistics to inform crime control policies at all levels of law 
enforcement; improves police responses to individuals with mental 
illness, and helps law enforcement agencies improve their response to 
children and families who come into contact with law enforcement.
    Community policing emphasizes working with neighborhood residents 
to advance public safety. With an additional $42 million, the fiscal 
year 2017 budget will increase, through the COPS Hiring Program, the 
number of community police officers working with residents to identify 
crime problems particular to their neighborhoods and collaborating with 
them on implementing solutions that produce meaningful results for the 
community.
      protecting citizens and addressing threats to public safety
    The fiscal year 2017 budget request supports the President's 
initiatives on reducing gun violence, as well as significant 
investments that focus on combatting violent crime throughout the 
United States. To this end, the Department requests $164 million in 
additional investments. The request includes $89 million to enhance the 
enforcement of existing Federal firearms laws and expand the Bureau of 
Alcohol, Tobacco, Firearms and Explosives' (ATF's) regulatory capacity. 
Funding will support National Firearms Act application processing, 
enhancements to the National Integrated Ballistics Information Network 
(NIBIN), and for the FBI to maintain fiscal year 2016 investments in 
the National Instant Criminal Background Check System (NICS).
    The budget requests an additional $39 million in resources to 
combat violent crime. This additional funding will support hiring of 54 
additional Deputy U.S. Marshals, creating a new Regional Fugitive Task 
Force to apprehend violent fugitives, and improving Deputy U.S. Marshal 
safety equipment. In addition, the Organized Crime Drug Enforcement 
Task Forces (OCDETF) request operational funding increases in pursuit 
of Transnational Organized Crime (TOC) targets, such as those on the 
Top International Criminal Organizations Target (TICOT) list. Further, 
FBI will augment existing information technology (IT) systems to create 
a consolidated TOC watch list. The budget includes $5 million for OJP 
to continue to expand the Violence Reduction Network, which leverages 
the vast array of existing resources across the Department to implement 
and administer a comprehensive approach to violence reduction in some 
of the country's cities with the highest violent crime rates.
    The President's budget requests an additional $17 million to 
counteract increased availability and abuse of heroin, including 
resources for the DEA to establish additional Heroin Enforcement 
Groups. The Department's request also provides increases to thwart 
international drug trafficking and to support high priority 
prosecutions against drug trafficking organizations along the Southwest 
Border. These investments illustrate DOJ's commitment to combatting the 
opioid epidemic and supporting the victims of this public health 
crisis.
               protecting the most vulnerable populations
    The Department's priority of upholding the civil and constitutional 
rights of all Americans, particularly the most vulnerable members of 
our society, remains of the highest importance. The Nation's vulnerable 
populations deserve the same rights, opportunities, and protections 
from injustices as the rest of society. The administration and the 
Department are committed to accomplishing this goal and ensuring our 
vulnerable members are always protected--particularly those caught in 
the clutches of human trafficking, a heinous offense that has 
appropriately been described as modern-day slavery. Seeking justice for 
the victims of human trafficking is a cause that has long been close to 
my heart, and it is now one of my main priorities as Attorney General. 
Our fiscal year 2017 budget includes $89.3 million to reinforce the 
Department's efforts to combat human trafficking and provide protection 
and services to victims. This includes $45 million for OJP's Victims of 
Trafficking Program.
    One particularly critical demographic of the country's vulnerable 
populations is our youth. It is of the utmost importance to provide 
services to children exposed to violence in order to break the cycle of 
violence and to address the needs of at-risk youth to prevent further 
contact with the criminal justice system. The fiscal year 2017 request 
includes a $64 million net increase for OJP's Juvenile Justice Programs 
appropriation account, in addition to increases in related State and 
local law enforcement programs. An increase of $25 million will augment 
the Delinquency Prevention Program, with the first goal being to 
prevent children from entering the criminal justice system by providing 
assistance, guidance, and support as early as possible. The budget 
requests $30 million to reestablish the Juvenile Accountability Block 
Grant Program, which encourage States and units of local government to 
implement accountability-based programs and services and strengthen the 
juvenile justice system. The Department is committed to supporting and 
protecting this country's young people.
    Additional resources are requested to ensure the Nation's police 
are properly trained to interact with children, people with mental 
illness, and people with disabilities, and to support enforcement, 
technical assistance, and the issuance of guidance and regulations 
related to the Americans with Disabilities Act. In addition, the 
Department is proud to protect the rights of our servicemembers, and 
this budget allows us to continue our commitment to defending the civil 
rights of active duty military and veterans.
                 improving access to justice nationwide
    The budget requests an increase of $21.5 million for programs to 
help State, local, and tribal partners address the access to justice 
crisis with systematic improvements to their indigent defense and civil 
legal aid systems, as well as for research conducted by the National 
Institute of Justice and the Bureau of Justice Statistics. We have 
proposals to assist jurisdictions with training and technical 
assistance to improve their indigent defense programs, both for adults 
and juveniles. In another understudied area of our justice system, we 
propose a new grant program to incentivize States to create integrated 
civil legal aid delivery systems to better meet the legal needs of low- 
and moderate-income people. This funding would amplify the direct 
services provided by grantees of the Legal Services Corporation by 
engaging other stakeholders like the State judiciary to improve access 
to justice.
               upgrading mission critical infrastructure
    In order to maintain an effective and efficient organization, the 
Department must invest in its infrastructure to support its 
investigative and prosecutorial enterprises. The request of $179 
million builds on investments previously made to address gaps in 
critical infrastructure, including IT improvements that support both 
law enforcement and litigating components, facility construction and 
maintenance, policy oversight, and personnel security investments.
    The resources requested for IT improvements total $79 million to 
upgrade outdated IT systems and enhance the capabilities of existing 
systems for multiple law enforcement and litigation components. The 
upgrades will keep pace with security, stability, and scalability, and 
will result in operational efficiencies for mobile capabilities and 
improved information sharing. For facility construction and 
maintenance, $93 million is requested for the FBI, the Executive Office 
for Immigration Review (EOIR), and the U.S. Marshals Service (USMS) for 
priority construction, infrastructure improvements, and detention 
housing of Federal prisoners. The Department requests $8 million for 
policy offices (supported by the General Administration (GA) 
appropriation) and the USMS's Office of Professional Responsibility to 
enhance policy analysis, coordination, and compliance functions. The 
Department's grant-making components will continue to implement 
GrantsNet, an integrated shared services approach that enables common 
business processes, decreases the number of grants management 
solutions, and eliminates standalone systems and tools. Finally, 
$277,000 is requested for personnel security to address the 
Department's current backlog of security investigations of both Federal 
employees and contractors and future security investigation needs.
    investing resources to assist state, local, and tribal partners
    The fiscal year 2017 budget maintains the Department's commitments 
to State, local, and tribal law enforcement partners without reducing 
DOJ's Federal operational role. It also begins a 10-year, $500 million 
per year commitment to funding criminal justice reform efforts 
nationwide. The fiscal year 2017 discretionary and mandatory request 
for State, local, and tribal law enforcement assistance is $4.7 
billion, including discretionary enhancements of $443 million. This 
request also contains identified efficiencies to ensure that only the 
most effective grant programs receive Federal resources.
    The fiscal year 2017 request for COPS totals $286 million, and 
includes an increase of $42 million for the COPS Hiring Program and $3 
million to supplement the CVE initiative. The Office on Violence 
against Women's (OVW) fiscal year 2017 request totals $489 million, and 
includes increases of $11 million for the Improving Criminal Justice 
Responses to Sexual Assault, Domestic Violence, Dating Violence and 
Stalking Program (formerly known as the Arrest Program) to support 
coordinated, effective police, prosecution, and judicial responses to 
these crimes; $8 million to increase the availability of evidence-based 
legal services for victims; and $6 million for OVW's Campus Program to 
continue and expand the work being done to address sexual assault on 
college campuses. The fiscal year 2017 request for OJP totals $4.2 
billion, including $1.6 billion for discretionary grant programs and 
$2.6 billion for mandatory grant programs. It includes $326 million in 
discretionary enhancements, including increased funding for an indigent 
defense initiative, Second Chance Prisoner Reentry, Justice 
Reinvestment, and juvenile justice programs, new funding to support the 
Violence Reduction Network, and the CVE initiative and research on 
domestic radicalization.
               providing public safety in indian country
    The United States has a unique legal and political relationship 
with American Indian tribes and Alaskan Native communities, as provided 
by the Constitution, treaties, court decisions, and Federal statutes. 
The Department of Justice, in particular, has an important legal and 
moral responsibility to prosecute violent crime in Indian Country. 
Federal investigation and prosecution of such matters is often the 
primary avenue of protection for the victims of these crimes.
    The President's fiscal year 2017 budget requests $418 million in 
total resources for public safety initiatives in Indian Country. 
Investments support activities across many DOJ components that address 
a range of criminal and civil justice issues facing Native American 
communities. A highlight is the COPS Tribal Resources Grant Program, 
which facilitates tribal access to critical information sharing 
systems. The increase will support the Department's Tribal Access 
Program for National Crime Information. Launched in August 2015, the 
program enables tribes to more effectively serve and protect their 
members by ensuring the exchange of critical data across systems, such 
as those managed by the FBI's Criminal Justice Information Services 
(CJIS) Division. The request also includes a 7 percent set-aside from 
OJP's discretionary grant and reimbursement programs for flexible 
tribal justice assistance grants. In addition, the Department requests 
resources to strengthen the enforcement of environmental laws on tribal 
lands, to support consultation with tribes and coordination of tribal 
policies through OTJ, and to help tribes hold non-Indian offenders 
accountable for domestic and dating violence committed in Indian 
country.
                               conclusion
    Chairman Shelby, Vice Chairwoman Mikulski, and members of the 
subcommittee, it is my pleasure to highlight recent DOJ successes as 
well as identified efficiencies that help strengthen the Department's 
ability to ensure fairness, equality, and justice for all Americans. I 
thank you for your past support of the Department's financial needs, 
and for the opportunity to present our fiscal year 2017 budget request. 
Progress within our Nation has always been driven by our desire to live 
up to our ideals of inclusiveness and opportunity, of equal rights and 
equal justice. I look forward to working with you through the upcoming 
fiscal year to ensure that the Department of Justice remains on solid 
financial footing and can accomplish its multiple and varied missions 
effectively.

                        GUANTANAMO BAY DETAINEES

    Senator Shelby. Thank you, Madam Attorney General.
    Since President Obama took office, Congress has 
consistently, on a bipartisan basis, prohibited the closure of 
the terrorist detention facility at Guantanamo Bay through 
multiple pieces of legislation. This subcommittee once again 
included two prohibitions in the fiscal year 2016 spending bill 
restricting the transfer and housing of these terrorist 
detainees on U.S. soil, and the President signed that bill into 
law.
    Yet, this week, the President has announced a new plan to 
close the detention facility at Guantanamo Bay. My questions: 
You have previously testified that Federal law prohibits the 
transfer of terrorist detainees from Guantanamo Bay to U.S. 
soil. How has your legal opinion changed, or has it, to warrant 
the President's announcement?
    Attorney General Lynch. Thank you, Mr. Chairman, for the 
opportunity to address that issue.
    The President did submit a proposal to Congress this week 
regarding the closure of Guantanamo Bay, which has long been a 
priority of the administration, and which I support, as it 
does, in fact, lead to the unfortunate recruitment of 
additional terrorist individuals overseas.
    Of course, as you note, the most recent legislation 
continues the prohibition on transferring detainees from 
Guantanamo Bay to American soil.
    Senator Shelby. That is the law right now, isn't it?
    Attorney General Lynch. That is the current law, and it 
continues previous iterations of those statutes.
    Certainly, I believe that is why the President's plan calls 
for him to work with Congress to discuss that particular issue. 
That is, I believe, the goal here.
    Obviously, we will continue to manage the facility as long 
as it is open, but I believe the President is looking forward 
to working with Congress to discuss those issues. That will be 
something that I am sure will be a matter of discussion between 
the administration and this body.
    Senator Shelby. Have you advised the President on using 
executive actions to close the Guantanamo prison and transfer 
terrorist detainees to American soil, despite the law?
    Attorney General Lynch. I have neither been asked nor 
provided----
    Senator Shelby. You have not done that?
    Attorney General Lynch [continuing]. Advice on that, 
because the position is that the President will work with 
Congress to deal with the statutory limitations before any 
transfers could be made.
    Senator Shelby. Okay.

                    PROOF OF CITIZENSHIP FOR VOTERS

    In the area of allowing noncitizens to vote, let me get 
into this topic with you a little.
    Recent press reports have indicated that the Department of 
Justice has failed in its duty to properly defend the U.S. 
Election Assistance Commission, EAC, in a lawsuit involving the 
right of States to require proof of citizenship for voter 
registration.
    It is my understanding that the Election Assistance 
Commission has approved the request of States, such as my own 
in Alabama, Georgia, and Kansas, to require such proof of 
citizenship, and various outside groups are challenging this 
approval in court.
    Earlier this week, a Federal court denied a request for a 
temporary restraining order against the EAC's actions. But I 
was disturbed, Madam Attorney General, to learn about the 
conduct of the Department of Justice's lawyers in this case, 
who took the opposite position of your client, the Election 
Assistance Commission, instead of defending them.
    My question is this, did you authorize, as the Attorney 
General, the Department's attorneys to argue for a temporary 
restraining order and possibly even a preliminary injunction 
against the actions of your own client, the Election Assistance 
Commission, in this case?
    Attorney General Lynch. Thank you, Mr. Chairman. As you 
have noted, the Department does represent the Election 
Assistance Commission, as we statutorily do represent virtually 
all Federal agencies and other departments here.
    This matter is an open matter. It is in current litigation. 
So because it is in active litigation, it is not appropriate 
for me to comment at this time on those types of discussions. I 
would note that we did file papers in that matter, and our 
position is best set forth in those pleadings.
    Senator Shelby. Do you personally believe--you are the 
chief law enforcement officer of the country--that noncitizens 
should be allowed to vote in U.S. elections, although they are 
not American citizens?
    Attorney General Lynch. Senator, I believe the law is 
settled as to who is allowed to vote in terms of citizenship.
    I believe this particular case focuses on matters of how 
documents will be prepared. As I indicated, we have filed 
pleadings in the matter, and I would refer you to those for the 
Department's position.
    Senator Shelby. Goodness.

                            SANCTUARY CITIES

    Sanctuary cities, my last question to you. There is an 
ongoing problem that we all have talked about with sanctuary 
cities in our country. I do not believe that your department is 
addressing this, or the administration.
    Madam Attorney General, let me preface this. I received a 
letter from Mr. Kadzik, not you, which states the 
administration is finally acknowledging and beginning to work 
on the problem of sanctuary cities.
    How are you approaching that? Isn't this a real problem in 
this country?
    Attorney General Lynch. Thank you, Mr. Chairman, for 
raising this issue, because it certainly does reflect the 
numerous strands of tensions that arise as we try to carry out 
our obligations to work with our State and local partners, as 
well as deal with the issue of the need to remove individuals 
who are released from Federal custody and are deportable, and, 
therefore, are usually processed for removal by the Department 
of Homeland Security.
    Also, I thank you for your communications on this matter to 
me several months ago. Certainly, as we have reviewed this 
issue and looked at policies to best handle it, all of those 
issues have been important, so I thank you for your attention 
to this matter as well.
    As you note, Mr. Chairman, this has been an issue, and it 
raises a number of concerns about public safety as well as the 
comity and relationship between the Federal agencies and our 
State and local counterparts.
    It arises because, in many situations, when individuals, 
noncitizens--particularly those who do not have legal status 
and are, therefore, going to be deported--are released from 
Federal custody, from the Bureau of Prisons custody, 
traditionally, if there are other law enforcement agencies that 
have an interest in prosecuting or investigating these 
individuals, they have filed detainers. Another State, for 
example, may need to prosecute that individual for another 
crime. Of course, we support those citizens' right to justice 
as well.
    Typically, we would wait until the end of those other State 
adjudications before going forward with the Department of 
Homeland Security Immigration and Customs Enforcement (ICE) 
removal action, because to remove the defendant would mean the 
State would not be able to prosecute them, and those victims 
would not obtain justice.
    However, in situations where, at the end of the State 
proceedings or the end of State custody, we were finding that 
the ICE removal orders were not being honored. This presented a 
problem where individuals were being released without the 
knowledge of the Federal Government, without our ability to 
intervene, and then move forward with those removal actions.
    It has been further complicated by ongoing litigation in 
this matter. The Department is currently defending the 
Department of Homeland Security in two actions where 
jurisdictions are challenging their obligations to provide 
information to DHS, whether it is, for example, voluntary or 
mandatory. So those matters are ongoing, and we have had a 
ruling against us.
    What we have decided to do, however, is to look at this 
matter from a way of what policy can be best set up that 
effectuates the goals of, first of all, public safety as well 
as respecting our State and local colleagues' needs.
    So our current policy, as was outlined to you in your 
letter, in the letter that we provided to you, and has been 
recently announced, is that instead of the Bureau of Prisons 
placing the ICE detainer removal last in priority, they now 
have the right of first refusal. They are now first in priority 
when someone who is deportable is to be released from Federal 
custody.
    What this means is that, if the individual is likely to go 
to a jurisdiction that would not work with us at the end of 
their adjudication, that is taken into consideration, and the 
individual can be removed rather than being released and, in 
fact, further harming public safety.
    There are many jurisdictions that do work with us, however. 
So we do, as I mentioned, want to make sure that they can 
adjudicate their cases. So we want to have, essentially, the 
ICE removal detainer the first in line, and ICE will have the 
right of first refusal on removing someone.
    We think that this will help us manage the situation, while 
still letting jurisdictions have those prosecutions.
    Senator Shelby. Do you believe that municipalities in this 
country, cities, that refuse to cooperate with the Federal 
immigration laws should be allowed to receive Federal law 
enforcement grant funding of any kind? They are in defiance of 
the State Department, Homeland Security, or the Justice 
Department.
    Attorney General Lynch. Thank you, sir.
    Certainly, as we advise all those who apply for grants, 
they must comply with applicable Federal law. Certainly, where 
we receive allegations that they are not complying with the 
Federal laws that relate directly to those grants, we refer 
those matters to our Inspector General for investigation.
    As I mentioned earlier, one of the issues that has 
developed, however, and I note that we are defending the 
Department of Homeland Security in two cases now, challenging 
whether or not that requirement to cooperate with us with 
respect to that particular law is mandatory or voluntary. In 
fact, in one circuit, there has been a holding that it is not 
mandatory.
    So while we certainly will continue to advance our position 
in court, we also felt that, as a policy matter, having a 
policy that allowed us to deal first with the removal matter 
would be more effective and, frankly, more timely.
    Senator Shelby. Thank you.
    Senator Mikulski.

                     INTERNATIONAL ORGANIZED CRIME

    Senator Mikulski. Thank you.
    Madam Attorney General, I want to go to the international 
scene and discuss international organized crime. From meetings 
and hearings in both this subcommittee and the Intelligence 
Committee, we see that there is a growth of international 
organized crime. One of my questions would be, is that valid?
    Second, is the scope of international organized crime 
growing, from either being contract killers for nation-states 
that do not want to get their hands dirty to human trafficking 
to fraud?
    Also most recently, I know some of my colleagues, some in 
this room over the age of 65, got the kinds of phone calls that 
I did, which told me that I was being sued by the IRS for 
failure of payment. All I needed to do was give them my credit 
card and pin number, and all things would be well. Of course, 
we have taken proper action on that.
    But that is pretty scary. It means that they are targeting 
people of a certain age. And it is one thing to get unsolicited 
phone calls to buy home alert systems. It is another to get 
this.
    So my question to you is, number one, is organized crime 
growing internationally? And number two, do you have the 
resources, because they are at it on so many different levels, 
from terrorism to trafficking to international fraud, some very 
big, trying to hack our Medicare system at the Social Security 
Administration, to an individual unsuspecting taxpayer scared 
to death by a pretty rough and rude phone call.
    Attorney General Lynch. Thank you, Senator Mikulski.
    You have raised some important issues, in particular, the 
fact that transnational organized crime is now cutting across a 
number of spheres of criminal activity.
    Just to address initially the last issue that you raised 
about the IRS scam phone call that you received, this is, in 
fact, the type of scam that we are seeing on the rise. Many of 
the calls originate from within the country. Some of them 
originate from outside the country. They do target our 
vulnerable populations, in particular our older Americans.
    That is why, not to focus specifically on transnational 
organized crime, but in terms of dealing with crime targeting 
our elderly citizens, one of the things that we are looking at 
is increased funding there that would give us 10 task forces 
around the country to focus specifically on elder-related 
crime.
    But to your first point about transnational organized 
crime, the fiscal year 2017 request does include $1.5 million 
to fund the Organized Crime Drug Enforcement Task Forces 
(OCDETF's) priority transnational organized crime initiative. 
In fact, that is one of the areas where we see this growing.
    The FBI is embarking on a 2016 pilot effort to watch-list a 
certain number of transnational organized crime individuals. 
The goal is to provide a watch-listing capability that the 
Government can operate similar to our terrorist screening 
center, so just because someone does not fall in the terrorist 
bucket, we can still set up a watch-list program for them that 
indicates they are involved in transnational organized crime.
    This cuts across so many areas. Our cybercrime request, for 
example, deals with the issue of fraud and also computer 
intrusions. Many of the computer hackings that we have 
experienced, be it on a government level or directed against 
individuals or directed against segments of industry, originate 
from overseas. So for these cybercrime efforts, we are asking 
for a total of $950 million in fiscal year 2017, which would 
give us the resources that we need within main Justice, with 
attorneys, with the FBI, with increased agents, to deal with 
that issue.
    As it relates to human trafficking, that request is for $89 
million. That would also cover domestic and international 
efforts to deal with human trafficking. It would support the 
work we do with task forces with our State and local 
colleagues, as well as the investigations that we do overseas.
    So this area is woven throughout the Department's budget, 
and I thank you for bringing attention to it.
    Senator Mikulski. Well, it shows really how big this is, 
and I encourage my colleagues to look at it.

                              BODY CAMERAS

    One last question. As you know, we are working very hard to 
establish trust between local law enforcement and the citizens 
they are sworn to protect. Do you think that body cameras are 
an important tool to establish this for not only evidentiary 
reasons, but trust reasons? Or do you see impediments and 
potholes to this? Could you tell us what you think about the 
efficacy of body cameras for both sides, law enforcement and 
citizens, that you have actively engaged with yourself?
    Attorney General Lynch. Thank you, Senator.
    I think that this is one of the most important issues that 
we have facing the country, that is to say the trust connection 
between citizens and law enforcement. I think it is reflective 
of the bond between citizens and government writ large. So as 
we deal with this issue, we are strengthening and reinforcing 
that overall bond as well.
    Body cameras are an important tool in this regard, as it 
relates to local law enforcement. We currently support a number 
of pilot programs that have enabled several jurisdictions to 
purchase body cameras and to also deal with issues of data 
storage and data retention and privacy issues that also arise 
therefrom as well.
    I certainly think, in my travels across the country, as I 
have talked with law enforcement leaders and community 
leaders--I meet with them separately; I meet with them 
together. I talk to people who are actively working on this 
issue. The reason why I think it is still an important tool is 
that the conversations are helpful, but particularly in 
situations where the bond of trust is so frayed, having that 
third party sort of open eye can be very helpful.
    In fact, in jurisdictions that have adopted the use of body 
cameras, so far, over the last several years, those 
jurisdictions almost uniformly have seen a reduction in the 
number of citizen complaints against police officers. So 
citizens feel that, essentially, they have accountability. 
Officers who initially may be resistant to this, and it varies 
throughout the law enforcement community, depending upon the 
size of the department and the issues that it raises, but law 
enforcement may start out being resistant to this idea, but 
generally are finding it very, very helpful, because it also 
gives them the independent third eye as to what happened. And 
they have corroboration for their statements, and they have 
that useful evidence.
    Of course, it does not capture an entire interaction. It 
does not answer all the questions. But it does give both sides 
in the debate something on which to rely. From that, you can 
also work toward rebuilding the relationship of trust that is 
so important.
    So the jurisdictions that I have been speaking with are 
looking forward to receiving body cameras. Those that have them 
are finding them extremely useful. And I am getting very 
positive comments from community members as well.
    Senator Mikulski. Thank you. That was very insightful.
    Mr. Chairman, thank you.
    Senator Shelby. Senator Lankford.

                            SANCTUARY CITIES

    Senator Lankford. Thank you, Mr. Chairman.
    Good morning, again. I wanted to be able to follow up on a 
quick statement that you made, then I have multiple questions 
to go through.
    The chairman asked you about sanctuary cities. You are 
saying that you have changed the internal processes for the ICE 
detainers so they go first in this and that DOJ is now 
attentive to cities that are traditionally cities that have not 
cooperated with us in making sure that we do our prosecutions 
or deportations before they get to the city. Did I get that 
correct?
    Attorney General Lynch. That is correct. Just to clarify, 
the policy is a DHS policy with BOP. But, yes, that is correct.
    Senator Lankford. That is a real help, so I appreciate 
everyone getting the chance to start working through the 
process and trying to find some solutions.

                        GUANTANAMO BAY DETAINEES

    Yesterday, you had conversations with the House Committee 
on Appropriations and this issue of Gitmo came up at that time 
as well. You gave very thorough answers, and I appreciate that 
as well.
    One of the statements that you made, though, you were 
talking about individuals from Guantanamo Bay could be 
transferred, certain individuals, which is not the majority, 
but certain individuals could be transferred to other countries 
after significant vetting.
    You made the statement, with respect to individuals being 
transferred to the United States, the law currently does not 
allow for that, does not allow individuals currently to be 
transferred from Guantanamo Bay to the United States.
    So my question on that is, is that a current law, meaning 
Congress would have to pass something to change that? Or are 
you anticipating an expiration of some current law, and so 
there may be a time people could come? So just identifying that 
word ``currently'' in what you said and trying to identify, is 
there a new law that needs to be passed before individuals 
could be moved from Guantanamo to the United States, or there 
is some law you're watching for an expiration on?
    Attorney General Lynch. Senator, I do not have a plan on 
that. That is something I believe the White House is going to 
speak to Congress about, in terms of what should be done 
statutorily, in terms of how to best close Guantanamo Bay. Of 
course, as we have discussed, because of the current state of 
the law, both the most recent National Defense Authorization 
Act (NDAA) and previous iterations of that contain a 
prohibition on bringing any of those individuals to U.S. soil. 
That is something that would have to be resolved between the 
administration and Congress.
    Senator Lankford. So I guess what I am asking is, do you 
anticipate Congress would have to pass something to change that 
or is there some expiration that you anticipate to say, after 
this date, the NDAA, for instance, currently it is in the law, 
but once NDAA expires this year, then maybe we could? That is 
what I am trying to identify.
    Attorney General Lynch. Senator, there are a number of 
options, but I certainly am not advocating anything at this 
point. I believe that is up to the President, as he intends to 
have those discussions. And I intend to let him have those 
discussions and bring that matter before Congress.
    Senator Lankford. Sure. But, again, back to the same issue, 
would Congress have to pass something proactively for that to 
change? Or could the policy change based on expiration?
    Attorney General Lynch. I hate to give you the lawyer's 
answer that it depends, but it certainly depends on the state 
of the law, and when the matter is up for consideration. 
Certainly, the current state of the law, I anticipate there 
will be discussions between the White House and Congress about 
how to best handle that issue.
    I do not have any forward thinking on that for you to give. 
I am not looking to get ahead of the President on that issue.
    Senator Lankford. Okay.

                 POTENTIAL GRANT DUPLICATION REPORTING

    During fiscal year 2016 and 2017, the Department of Justice 
requested $22 million as a carveout in the Byrne JAG funding 
for the bulletproof vest program. So instead of having it as 
its own separate line item, it would be within Byrne JAG and 
just be a carveout.
    That is one that I have supported. It deals with some of 
the duplicative issues.
    We had asked, in last year's omnibus, to have a report on 
duplication. I have seen the report that has come back. It was 
due a couple weeks ago. The report was basically three pages of 
just very general statements saying we did not find much, but 
there was no real detail, and a more comprehensive report is 
coming at some point on duplication within programs.
    When can we anticipate that that would happen? That would 
be helpful to us as we make decisions in the days ahead, to 
have a more complete report on duplication.
    Attorney General Lynch. Thank you for raising that. I 
certainly would appreciate the opportunity to respond to you at 
the staff level with more information on that.
    Certainly, within this current budget, we are looking to 
avoid duplication and looking to where we may have had 
programs, in a very general sense, that were very similar to 
focusing on those that we found to be the most effective. The 
bulletproof vest program is certainly one that we feel has been 
very effective. But even within our grant programs, we are 
always looking for ways to make sure we are focusing on those 
that are most effective and not simply having multiple----
    Senator Lankford. Correct. There is a difference between 
effective and duplicative. There may be several effective 
programs that we could add administrative functions together 
and be able to----
    Attorney General Lynch. And generate savings.
    Senator Lankford. Correct. And be able to actually get 
additional bulletproof vests on the street rather than using it 
for administrative dollars.

                           CRIME VICTIMS FUND

    One last thing, you made a comment in your budget, fiscal 
year 2017 budget, about the Crime Victims Fund, saying you are 
estimating $10.2 billion in mandatory program authority. That 
was the request. But the actual request to spend was $2 billion 
in disbursements. About $2.7 billion, $2.5 billion is actually 
coming into that Crime Victims Fund each year.
    The $2 billion that you made a request on, does that meet 
the needs of all the crime victims and the crime victims 
issues? Is that why there is a $2 billion request when we have 
a larger amount than that that is actually coming in, a smaller 
amount that is actually the request? I assume that means that 
all requests have been fulfilled with your budget?
    Attorney General Lynch. Senator, what I can tell you 
today--and, certainly, again, with respect to those specific 
numbers, I appreciate the opportunity to get back to you at the 
staff level. But what I can tell you today is that, certainly, 
the budget does include the $10.5 billion in the mandatory 
budget authority----
    Senator Lankford. But only $2 billion in disbursements.
    Attorney General Lynch. $2 billion in disbursements from 
the Crime Victims Fund. And essentially, I know that this 
budget does focus on victims programs. And I know that the rest 
of that money is used in terms of an accounting method called 
scorekeeping.
    But again, I would rather not misstate that for you today 
on the numbers, and would appreciate the chance to get back to 
you on that.
    [The information follows:]

    The President's budget requests that, of the estimated $12.5 
billion in the Crime Victims Fund in fiscal year 2017, $2 billion be 
made available for obligation. The President's request will not meet 
the needs of all crime victims. However, this funding level builds on 
the $2.361 billion enacted in fiscal year 2015 and the $3.042 billion 
enacted in fiscal year 2016, continuing an unprecedented level of 
support for crime victims across the country. This request maintains 
strong support for formula grants to support victims compensation and 
services programs and will help ensure that victim's services providers 
will be able to responsibly implement the $3 billion provided to 
support CVF programs in fiscal year 2016. The fiscal year 2017 
President's budget request of $2 billion will maintain the fiscal 
integrity of the Fund for future years.

    Senator Lankford. Okay. Will do. Thank you.
    I yield back.
    Senator Shelby. Senator Feinstein.

                           HUMAN TRAFFICKING

    Senator Feinstein. Thank you very much, Mr. Chairman.
    And welcome, Attorney General.
    I want to begin by thanking you, Sally Yates, and the FBI, 
for your activity during the Super Bowl in California to 
counter human trafficking.
    I have been very impressed with the coordination. San 
Francisco's FBI division oversaw more than 35 Super Bowl 
antitrafficking operations, and they did it very well.
    In L.A., the sheriff has constituted a special unit of the 
department that takes the matter very seriously. They made 198 
arrests. Only 13 of those were buyers that were booked. This is 
what I wanted to discuss with you today.
    Senator Mikulski spoke about organized crime. Nothing is 
more organized than human trafficking. I think the Senate 
really stands as unanimously as we ever get to counter this.
    I think a greater emphasis has to be placed on demand. That 
means arresting and booking buyers, not just citing them, and 
ensuring that they are prosecuted.
    I understand that in certain local jurisdictions, 
enforcement is reluctant to arrest and hold the buyers if they 
do not believe local prosecutors will actually take the case. 
And now we have Federal law that is actually stronger than 
California law.
    So I am hopeful that, because this is an organized crime 
effort, because it does go interstate and even international, 
that our Government will be willing to take a number of these 
cases as Federal cases and actually book and hold the buyers 
who buy children as well as adults.
    It is just something that I do not think this country can 
countenance. So I would be very interested in your reaction to 
that.
    Attorney General Lynch. Yes, thank you, Senator. You have 
certainly touched on one of my top priorities.
    I know that from your work with California law enforcement, 
you are aware of the efforts, the Herculean efforts, frankly, 
that they are undertaking to fight this scourge.
    We have seen, in particular, the corridor up from 
California into the Washington State area as one that has been 
extremely prolific in terms of human trafficking over the 
years. I was privileged to be in Seattle late last year to 
discuss the awarding of some grants we were providing to them 
to increase enforcement there.
    So at the local level, we are, in fact, providing the 
resources that we hope will generate more prosecutions. And, 
certainly, at the Federal level, we are looking to do that as 
well. We are expanding what is called the antitrafficking team 
initiative that gets local U.S. Attorneys involved in these 
cases also.
    Our focus is, frankly, primarily on rescuing the victims 
and trying to get them out of this life. So to do that, we 
partner with a lot of community resources and non-governmental 
organizations that can provide that kind of assistance.
    But then our focus is also to generate significant 
prosecutions of the traffickers and the buyers, both to 
prosecute them and hold them accountable, but as a deterrent to 
others who would engage in this particular heinous crime.
    So federally, we need certain types of jurisdiction for an 
individual buyer. That is why we do support the efforts of our 
State and local colleagues to generate those prosecutions as 
well.
    As I said before, my local U.S. Attorneys are very involved 
in this. Every office now is required to be involved in a human 
trafficking task force. That is part of the coordination that I 
hope you saw prior to the Super Bowl, so that before events 
like the Super Bowl, large-scale events--if, for example, the 
Olympics were to be here again, there would be similar 
initiatives.
    And the U.S. Attorneys coordinate and decide who will take 
this type of case. Again, for the individual buyers, those tend 
to be handled at the local level, but those discussions are 
also held in advance, so that our local colleagues are prepared 
to generate those types of cases.
    Senator Feinstein. Thank you. I really appreciate that.
    In California, we are trying to develop sympathetic homes 
for girls that have been held. The captivity of these young 
girls, the way the pimps create--the fact that their survival 
is dependent upon them is really a very serious thing, and a 
lot of them are very young. So that is a work in progress.
    But we do need strong enforcement, and we do need to say to 
people who buy young children and do these things that you are 
going to be arrested and you are going to be booked and you are 
going to jail for it. I think that is still missing, in a 
consistent basis.
    So anything we can do, because we now have strong Federal 
law, stronger than California's, is very much appreciated.
    Attorney General Lynch. Yes, thank you. We are focused on 
that.
    Senator Feinstein. Thank you.

           DEPARTMENT OF JUSTICE ASSISTANCE TO SAN BERNARDINO

    If I might, I want to talk about the San Bernardino event 
for a moment. I recently met with San Bernardino County 
officials, including the district attorney, as well as city 
officials, who discussed the great financial costs resulting 
from the December 2 terrorist attack and the ongoing public 
safety needs to reassure people there.
    The city has been through bankruptcy, so it does not have a 
lot of money. I think in cases of terrorism, it would be 
helpful to local communities if there were a one-stop shop of 
sorts at the Department of Justice where communities could go 
to understand all of the resources available and how to apply 
with them. We have that in FEMA cases, and I do think having 
some recourse within the department for that would be helpful.
    Can you tell us what sort of assistance your department has 
already provided to the City and County of San Bernardino in 
the wake of that terrorist attack, and what you think the 
department can and should do to help prevent another one?
    Attorney General Lynch. Certainly. I will say that I am not 
intimately familiar with everything that we may have provided, 
but we, certainly, through our Office of Victims of Crime would 
have been providing assistance to the individual victims' 
families.
    At the municipal level, though, I think you raise an 
excellent idea of finding a way in which we could collect all 
of our resources available to municipalities and make sure that 
they are aware of them. We typically do this through the Joint 
Terrorism Task Force at the law enforcement level, but there 
certainly are going to be other issues that I see that could 
arise from an incident like this that would not necessarily be 
tied in with the JTTF and might not have access to that 
information.
    Senator Feinstein. Well, it is one place where a county or 
a city or individuals can go. I would like to work with you on 
it, if I may, because San Bernardino is at a loss of where they 
are going to get the money to buy some of the materials, law 
enforcement materials, they need.
    For example, they do not have long guns. For a police force 
today, that has to be changed.
    So I would be very interested in working with you.
    Attorney General Lynch. We would appreciate that. Thank 
you, Senator.
    Senator Feinstein. Thank you.
    Thank you, Mr. Chairman.
    Senator Shelby. Senator Capito.

                       EQUITABLE SHARING PROGRAM

    Senator Capito. Thank you, Mr. Chairman.
    Thank you, Attorney General. I had a couple questions.
    I wanted to ask you, first of all, because we have heard 
from a lot of our State police, but some of our local law 
enforcement, county law enforcement, entities regarding the 
Asset Forfeiture Program's Equitable Sharing Program. You know 
that the funds have been withheld, and for some of these local 
entities, including our State police, these funds are pretty 
vital for them to move forward with their local law enforcement 
programs.
    Could you give us an update on the budgetary status? I read 
it was considered a pause where the money was not going to be 
forwarded on to the local entities. What is the status of that? 
And how have you been communicating with the local law 
enforcement agencies to keep them apprised of what is going on?
    Attorney General Lynch. Thank you for raising this issue, 
because, again, it is certainly one of great importance, not 
only to our State and local colleagues, but to me as someone 
who, through the Department of Justice, relies very heavily on 
them for their participation in the work that leads to the 
funds that go into the Asset Forfeiture Program that we use for 
Equitable Sharing. It is based upon a very strong task force 
relationship that we have with local police, sheriffs, and 
other offices. And we value that contribution tremendously.
    The situation, as you have indicated, is of recent vintage. 
We make our Equitable Sharing payments, again reflecting the 
law enforcement contributions of our State and local colleagues 
in these actions. We make these payments out of the Assets 
Forfeiture Fund, which, of course, is dependent upon the 
proceeds that we receive throughout the year.
    Generally, we work to make sure that we stay on track of 
the proceeds coming in and the proceeds going out. At the end 
of the last calendar year, after finalizing the fiscal year 
2016 budget plan in late December, we received information that 
there was going to be a fairly large rescission from the Assets 
Forfeiture Fund, larger than in previous years. Certainly, 
while we typically have gotten rescissions in the $200 million, 
$300 million range and have always tried to plan to be able to 
make sure that those do not impact our operations, the 
rescission in late December, early January, was about $1.2 
billion.
    So with that rescission coming out of the fund, it left the 
fund depleted. What we have indicated, and conveyed to our 
State and local colleagues, and to our police organizations, is 
that this is a temporary hold on Equitable Sharing payments, 
and that we anticipate and it is our intention that, as the 
Assets Forfeiture Fund is replenished, to resume those 
payments.
    So we have communicated this by speaking to our law 
enforcement organizations. Members of my leadership team have 
had calls and meetings with them. I have communicated directly 
with the heads of law enforcement organizations, State and 
local counterparts, with whom I work with and met with, the 
National Sheriffs' Association also, and have raised this issue 
with them as well as the National District Attorneys 
Association.
    We view this as a temporary cessation because the funds are 
not in the account at this point in time.
    We have asked two things of our State and local colleagues. 
Number one, we have asked that they remain in the task forces, 
because we need them and they are vital to making sure that we 
work on public safety. They know this area like no one else 
does. But also so that as their work continues, we can in fact 
process the applications, and when the money is available, make 
those payments as soon as possible.
    We have also advised them that even though we are not able 
to make the Equitable Sharing payments at this time, what is 
called the JLEO, or Joint Law Enforcement Operation payments, 
which primarily cover the overtime costs of State and local 
officers, are being made.
    So we have asked our colleagues to stay in the task forces 
and to continue to submit all the forms they would ordinarily 
submit for that.
    We have also advised them that we will update them on a 
monthly basis on this. We intend to do so. I spoke with them 
most recently over the course of January and this month and 
have gone into detail about how this issue occurred and our 
regret for it occurring, and stressed the importance of their 
contribution.
    Senator Capito. I think they know that they shouldn't be 
counting on these funds to run their local departments. The 
temptation obviously, of course, over years in slim budget 
times, these become very vital funds for them.
    Very quickly, because I am kind of out of time, ATF, you 
have an increase. We have that tracing facility in Martinsburg, 
West Virginia.

           NATIONAL INSTANT CRIMINAL BACKGROUND CHECK SYSTEM

    The other thing I wanted to talk about was the National 
Instant Criminal Background Check System (NICS). It is also 
located in West Virginia. I noticed in the statistics that we 
are doing twice as many background checks with 33 fewer people, 
and that you have asked for an additional 200 people, I am sure 
to meet the demands of the increasing workload there. How is 
the hiring going with that?
    Attorney General Lynch. Thank you.
    As you know, this issue is also very important to us, given 
the importance of the NICS system to making sure that we can 
promptly and efficiently respond to the requests that we 
receive.
    Because we are seeking to almost double the size of that 
facility, Federal hiring does take time, so we have begun the 
hiring already by hiring contractors who are able to come on 
board within the Federal system at a faster pace. So while we 
have not yet been able to add the total new number of people 
that we would like, it is proceeding.
    At the same time we are going to begin to work with 
contractors, we still intend to proceed with the Federal hiring 
process so that we can have full-time Federal employees on 
board as well.
    As you note, Senator, the applications for firearms 
transactions have increased dramatically, and we feel we have 
an obligation to respond as quickly and efficiently as possible 
to those dealers who submit information to us, as we ask them 
to do under the law, and to the individuals who also submit 
their information, as we ask them to do under the law.
    Senator Capito. I appreciate that. And, I would say that 
you noted in your opening statement that you are going to be 
consolidating and modernizing your FBI headquarters. Since my 
predecessor, Senator Byrd, was able to get all those great FBI 
employees in West Virginia, I think you ought to scope it out 
there. I think it would be a great place to just relocate the 
whole DOJ--sorry to the ranking member over there.
    Senator Mikulski. What are you relocating? [Laughter.]
    Senator Capito. Anything I can get.
    Senator Mikulski. I don't think I heard you right.
    Senator Capito. Anyway, thank you very much.
    Senator Mikulski. You know, Senator Byrd relocated 
everything to West Virginia. He was ready to relocate Virginia 
to West Virginia. [Laughter.]
    Senator Shelby. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you very much, Attorney General Lynch, both for 
your testimony this morning as well as your leadership at the 
Department of Justice on a daily basis.

                ASSETS FORFEITURE FUND EQUITABLE SHARING

    I want to pick up on Senator Capito's questions about the 
Assets Forfeiture Fund, because I have heard from everyone in 
New Hampshire, from our Attorney General to the Chiefs of 
Police Association to the average cop on the beat about the 
concerns that they have with what has happened.
    I think there are several ramifications for us in New 
Hampshire. One is, because we are dealing with a crisis in 
opioid and heroin addiction, any loss of support makes it even 
more difficult for law enforcement to address that challenge. 
They have also expressed concern about the communications and 
how sudden it was to learn that they were not going to be able 
to have the Equitable Sharing payments that they were 
expecting. They have also expressed concern about the formula 
for those payments and concern that they're hearing that 
formula could change from 80/20 to 50/50.
    You talked a little bit about your efforts to communicate 
on this issue, but can you talk about what more we can do so 
that local officials are not surprised by this kind of dramatic 
shift?
    Attorney General Lynch. Yes. Thank you, Senator.
    Certainly, it highlights the issues that arose at the end 
of the year as we were absorbing this rescission. And in terms 
of my discussions with my local law enforcement counterparts, 
both the heads of the police organizations and the sheriffs 
organizations, I have conveyed my direct apology to them, 
because we typically are able to build in communications with 
them over the course of policy changes like this, and that did 
not happen on this occasion.
    So it has caused an even greater hardship on our colleagues 
because they did not know it was happening. That, certainly, is 
not our intent and not our goal. So we have all been working on 
trying to resolve this issue in a way that restores the 
payments.
    Our goal would be to restore the payments to the full 
formula that we have been using.
    Senator Shaheen. So the 80/20?
    Attorney General Lynch. At this point, what we are doing is 
we are, on a monthly basis, keeping our State and local 
colleagues apprised of the progress of the Assets Forfeiture 
Fund, and we are doing this through communicating with the 
various law enforcement groups, major city chiefs, sheriffs, et 
cetera, as well as the DAs Association.
    So we also are awaiting the results on our review of some 
settlements coming into the Assets Forfeiture Fund, because we 
have to determine how we will essentially manage the victim 
payments that are required out of those first.
    Certainly, I know every law enforcement officer knows that 
the victims are why we do this. And of course, they take 
priority.
    But even with that, our goal is to try to restore it to the 
same program as before. We have certainly heard the same 
concerns and certainly anticipate hearing more and want those 
concerns. We want the communication with the law enforcement, 
with our DAs, with our State attorneys general, on this.
    We are keeping them apprised on a monthly basis of status.
    Senator Shaheen. I know you are reluctant to be pinned down 
to a date when you expect those payments to begin again, but 
are you looking at something that is going to happen within the 
next couple of months? Within the next 6 months? Within the 
next year? All of that has an impact, as you know, at the local 
level.
    Attorney General Lynch. Yes, it does. It does. Certainly, 
as Senator Capito has raised, it has an impact on their 
operations.
    But also, these are operations they are doing in 
conjunction with the Federal Government, so they are actually 
actively helping us. So we certainly do feel the obligation 
there on that level, for that reason as well.
    There has been discussion, and certainly I've gotten 
questions about whether or not the influx of asset forfeiture 
funds from some of our large settlements, which the settlements 
have been adjudicated, the monies coming in now can in fact 
restore these payments sooner rather than later. We are still, 
as I mentioned, working on dealing with the victim issue in 
those large settlements.
    So once we have that formula resolved, we will have a 
better idea of funds that will be left from large settlements, 
as well as an idea of how the Fund is being replenished on a 
monthly basis.
    Certainly, we have told our organizational colleagues that 
we will update them in mid-March. At this point, I do not have 
a date on when the payments would start. It is not our goal to 
delay them any longer than necessary. It certainly has never 
been our goal to stop them totally.
    Senator Shaheen. Thank you. I appreciate that.
    I think the more information that can be provided at the 
local level, the more helpful it will be as they are trying to 
deal with how to compensate for the lack of those payments.

                           HEROIN AND OPIOIDS

    Mr. Chairman, I know that my time has expired, but I am 
hoping I can ask one more question.
    Senator Mikulski, in her opening statement, referred to the 
scourge of heroin and opioid abuse. One of the things that we 
have seen in New Hampshire in response to that, and in our 
State, we are losing a person a day to overdose deaths, three 
times as many as we lost in traffic accidents last year.
    So one of the things that is beginning to work in 
communities is that law enforcement is working with treatment 
professionals, with the medical community, with schools, to 
have a real comprehensive, cooperative approach to how to deal 
with this issue.
    I have been disappointed that, at the Federal level, we do 
not have the same sense of urgency and cooperative approach to 
deal with this issue, where we are working across agencies, and 
there is a real understanding that, in 2014, we lost 47,000 
people in this country to overdoses.
    So can you reassure me that there is a sense of urgency and 
that this is something that, across agencies, there is an 
understanding that we have to do better to address?
    Attorney General Lynch. Senator, I cannot only reassure you 
of that, I can tell you that the Department is an active 
participant in a multiagency opioid task force that essentially 
pulls together the efforts in this to make this an all-
administration effort, because we do recognize that it has so 
many factors. Even within DOJ, our Drug Enforcement 
Administration, or DEA, is dealing with this issue with what is 
called a 360 strategy, which is enforcement, talking also with 
the manufacturers at the corporate level, and the community 
education level as well. So recognizing that even for an 
enforcement agency, we have to have a multilevel approach.
    There is, as I mentioned, this opioid task force that cuts 
across agencies, not just DOJ but Department of Health and 
Human Services (HHS). And Veterans Affairs is heavily involved 
in this. The Office of National Drug Control Policy (ONDCP), 
all their various names.
    But everyone is focusing on this, HHS, in particular, 
because this issue has to be dealt with on multiple levels. So 
we found that that is the most effective way to deal with it, 
so I can assure you that not only is it viewed as an urgent 
issue, as an epidemic and a crisis, it is being viewed as a 
multiagency one in how we have to resolve it.
    Senator Shaheen. Well, thank you. I appreciate the 
President's request in the budget for over $1 billion. I hope 
that Congress can provide the resources that are needed.
    Thank you, Mr. Chairman.
    Senator Shelby. Thank you.
    Senator Collins.

                           HEROIN AND OPIOIDS

    Senator Collins. Thank you, Mr. Chairman.
    Welcome, Attorney General. My questions also deal with the 
opioid and heroin crisis that is epidemic in my State as well.
    Recently, Federal law enforcement officials briefed me on 
the link between straw purchasing of guns and the heroin crisis 
in my State. What they described to me is a scheme in which 
out-of-state drug dealers with ties to inner-city gangs or the 
Mexican drug cartel come to my State with heroin, find addicts 
with no records, clean records, to buy guns and then there is 
an exchange of guns for heroin.
    In response to this problem, Senator Leahy and I have 
introduced a bill to greatly toughen the penalties for straw 
purchasing and illegal firearms trafficking, because right now, 
it is essentially treated as a paperwork violation, if you do 
not fill out the forms correctly.
    Our bill, I should make clear, fully protects the rights of 
law-abiding gun owners and purchases.
    Are you familiar with this link between gun trafficking, 
straw purchasing, and the heroin crisis?
    Attorney General Lynch. Senator, yes, I am familiar with 
that.
    It is a matter of grave concern to us as we look at both of 
these issues, the firearms issues, but, in particular, the 
heroin crisis.
    The use of straw purchasers not only inveigles these 
individuals into crime, but it exploits rather vulnerable 
people. As you note, the offenses right now tend to be 
considered paperwork offenses, it can be difficult to obtain 
cooperation from those individuals to allow us to work a 
Federal case up the chain, so to speak, and in fact, get those 
individuals who are really running a drug-trafficking ring 
across several States. And those are our targets.
    So we support the efforts that you have outlined to in fact 
strengthen the statutory authority that we would have to 
prosecute straw purchasers in instances like these.
    At this point, it would be extremely useful to have a 
stronger statute, because, first of all, it would hold 
individuals accountable for this behavior. As I mentioned, yes, 
they are vulnerable and they are being exploited, but 
individuals do have to be held accountable for their actions 
that they take. And it would give us the tools that we need to 
make those cases part of the larger cases, conspiracy cases and 
trafficking cases, that would bring in all of that criminal 
activity.
    Senator Collins. I look forward to working with you on 
trying to get our bill enacted into law.

                      COPS ANTI-HEROIN TASK FORCE

    The Department's budget for fiscal year 2017 zeroes out the 
funding for the COPS anti-heroin task force. Congress has 
appropriated $7 million in each of the last 2 years for this 
task force, which has funded competitive grants that have 
enabled law enforcement agencies in areas with high rates of 
heroin and opioid abuse to purchase drug detection equipment, 
expand data collection, strengthen information systems, all 
sorts of purposes.
    Communities in my State, from Fort Kent in the north to 
Portland in the south, have reaped the benefits of this 
funding. I think it is important to note that the heroin 
epidemic affects tiny towns, rural areas, as well as our larger 
cities. It is literally everywhere.
    As this epidemic continues to spread, I am very 
disappointed and, indeed, in some ways shocked, that the 
administration did not include any funding at all for this 
program, particularly since the Comprehensive Addiction and 
Recovery Act, which many of us have cosponsored, and which will 
be on the floor soon, specifically authorizes this task force. 
That is an indication of strong congressional support, as is 
the funding that it has received in each of the past 2 years.
    Why is the Department eliminating funding for this very 
successful competitive grant program that has been so useful, 
particularly to small towns that just do not have the resources 
to combat this epidemic?
    Attorney General Lynch. Thank you for the chance to address 
this issue, because it is one of vital importance. And 
certainly, I regret the impression that has been given that we 
in some way are diminishing the importance of COPS efforts in 
this area, the COPS program efforts in this area, their 
effectiveness, or the need that exists there.
    In constructing the current fiscal year 2017 budget and 
dealing with the heroin epidemic, what the Department has done 
is to include $12.5 million and 42 positions for DEA to create 
four new heroin enforcement groups. These groups, as with most 
of our DEA groups, would also draw heavily on local law 
enforcement for members as well.
    So we are trying to deal with the enforcement side of the 
increased heroin effort that way. So it is our hope that having 
greater Federal resources would relieve some of the burden on 
local law enforcement and, again, allow us to make those cases 
federally.
    So that is the direct answer to the specific issues as to 
why the COPS program was shifted in that way. We still, 
however, will be using the Community Oriented Policing Services 
(COPS) program to support local efforts, for example, the DEA 
meth lab cleanup program.
    Within COPS, in particular, however, we do have an 
increased funding request for the COPS hiring and training 
program that would allow jurisdictions to literally hire and 
retain officers directly.
    So we are hoping to increase those local efforts through 
COPS for our jurisdictions. We are hoping to increase the 
Federal cases that we can bring on the heroin level. And we are 
hoping to continue with the grant program in other areas.
    Senator Collins. I hope, Mr. Chairman and Ranking Member 
Mikulski, this is an area that we can look at. It is a small 
amount of money, and it has done a lot of good.
    And finally, just to follow up on Senator Mikulski's point 
about scams, the Aging Committee, which I am privileged to 
chair, the ranking member, Senator McCaskill, just put out a 
resource guide on the top 10 senior scams. That IRS scam is 
number one. We do need a more cooperative and aggressive 
approach to get after these terrible con artists who are 
frequently located overseas. Thank you.
    Senator Mikulski. Mr. Chairman, may I respond just for a 
second to the gentlelady from Maine?
    Senator Shelby. Go ahead, Senator.
    Senator Mikulski. First of all, that $7 million was from 
when I was the chair of the committee. We kept it going as 
chairmanships shifted because it was what I was looking for, 
and I think your description of the way it has been utilized 
was that it was not only limited to just enforcement, but other 
activities related to enforcement.
    But I would suggest for those of us who are interested in 
this, let's review all the programs here, as well as the 
President's initiative and the supplemental. Let's see what we 
can do to maximize this.
    I agree. I think this is an issue of such bipartisan focus 
and cooperation, so I look forward to working with the 
gentlelady.
    Senator Shelby. Senator Baldwin.

                        BUILDING COMMUNITY TRUST

    Senator Baldwin. Thank you, Mr. Chairman.
    Thank you, Attorney General Lynch, for your service.
    As the ranking member mentioned in her opening statement, 
communities across the country have experienced unrest and 
uprisings following officer-involved shootings and other deaths 
in custody, often involving African-Americans.
    In response, the President took action to help rebuild 
trust between law enforcement and local communities. In 
December, the Department of Justice COPS office announced the 
creation of a new Policing Practices and Accountability 
Initiative.
    I have to tell you I was very pleased to see the Department 
choose former Madison, Wisconsin, Police Chief Noble Wray to 
lead this initiative.
    Can you tell the subcommittee more about how the 
Department's budget request will support this new initiative, 
and how the program will help advance the recommendations of 
the President's 21st Century Policing Task Force to further 
improve relations between law enforcement and the communities 
that they serve across these United States?
    Attorney General Lynch. Thank you for the opportunity to 
talk about certainly what is one of my priorities as Attorney 
General, as well.
    We greatly appreciate the efforts of the former Madison, 
Wisconsin Chief, and all of his colleagues who have been so 
instrumental in working with the Department to help us bring 
those experiences and ideas from the ground up into main 
Justice to inform our policies, to inform our support of their 
efforts. It has been tremendously helpful, and we have found 
that type of peer-to-peer relationship has been effective, as 
we try to provide support for law enforcement agencies across 
the board.
    With respect to building community trust and community 
policing, for fiscal year 2017, those increases are $129.4 
million. They include $7.5 million for the body-worn cameras; 
$15 million for the Office of Justice Programs' Smart Policing 
program; $20 million for the COPS Collaborative Reform program; 
and $42 million for the COPS hiring program; under our 
Community Relations Services, funding for law enforcement 
reconciliation of $3.5 million; and under our Civil Rights 
Division, funding for policing and criminal justice of $2.7 
million.
    With all of those efforts, we are trying to take really a 
holistic approach to this issue and this problem. As you note, 
we have had a number of instances that have highlighted this 
broken trust. But I think we all have to agree that those 
incidents and the dissenting voices that arise from them are 
really drawing upon issues, situations, that were festering 
long before the law enforcement officer interacted with the 
individual and the tragedy resulted. So those issues also have 
to be dealt with.
    Police accountability, and the body-worn cameras, something 
that we found very, very helpful to both law enforcement and 
the community in making sure there is that vehicle for 
accountability----

                    COLLABORATIVE REFORM INITIATIVE

    Senator Baldwin. I want to pivot to the Collaborative 
Reform Initiative. If I might, I certainly continue to hear 
from my constituents in Wisconsin who are deeply shaken by the 
deaths of Dontre Hamilton in Milwaukee, Tony Robinson in 
Madison, among others. They are also concerned by this growing 
chasm that is the critical trust that must be present between 
law enforcement and the people that they risk their lives to 
protect.
    So the Milwaukee Police Department and the Department of 
Justice have joined together on such a Collaborative Reform 
Initiative to help speak to this problem. I want to just 
acknowledge that some of the Milwaukee constituents that I hear 
from believe that it is not a strong enough approach to the 
allegations of misconduct. I want to be sure that this effort 
leads to reforms and change.
    So you have increased the commitment in the budget for this 
program, as you just outlined, some $20 million. Can you talk 
about how those resources will help strengthen the work that 
they do in the Collaborative Reform Initiative?
    And how do you respond to those criticisms of Collaborative 
Reform, that it is not enough to achieve accountability?
    Attorney General Lynch. Thank you.
    Collaborative Reform is one of our most important tools. It 
is a tool that we both will offer to police departments, and 
one that they will come to us and request. So that has been a 
very positive development in the interaction on this issue.
    As always, an important part of it is the community 
response that you just outlined. In fact, my recollection and 
my notes indicate that in January, the first listening session 
regarding the Milwaukee Collaborative Reform, we were fortunate 
enough to have over 500 citizens come and express their views. 
This is vital.
    And I will say that it is important that they continue to 
provide their views on whether or not Collaborative Reform is 
achieving the effects that we all desire. But it is a process, 
and it is one that will take time.
    The listening is part of it, because it gives us an idea of 
how the community views the police department and whether or 
not the changes are effective. We are at the beginning of the 
process with Milwaukee, and we hope to continue working with 
them over the next 6 to 8 months to make those changes.
    We have always told all police departments that 
Collaborative Reform may, in fact, be the best tool for you. 
Sometimes there are other tools that end up being more 
effective. And I have seen situations where communities 
throughout Collaborative Reform have continued to hold the view 
that it has not been effective. And I have also seen situations 
where, over time, they do believe that it is becoming 
effective.
    In order for either of those views to be well informed, we 
have to have the dialogue. So part of the Collaborative Reform 
effort is building a process by which community members have 
insight into the department's current practices, proposed 
changes, and the opportunity to comment on them.
    Senator Shelby. Senator Coons.
    Senator Coons. Thank you, Chairman Shelby and Ranking 
Member Mikulski, for this hearing.
    Thank you, Attorney General Lynch, for your leadership of 
the department at this most difficult and important time.
    I would like to thank everybody in Federal law enforcement 
for their service and their hard work to advance justice. There 
are so many things we could talk about today, from your vital 
work in combating violent extremism or fighting human 
trafficking or international corruption or the important work 
that remains unfinished in terms of healing the real divide 
between law enforcement and communities of color across our 
country that Senator Baldwin was just asking about.

         VIOLENCE REDUCTION NETWORK AND CHILD ADVOCACY CENTERS

    Let me focus more narrowly on my hometown of Wilmington, 
Delaware, for a moment, if I might, where I think there is a 
good news story, which is the Violence Reduction Network, now 
in its second year, which has proven to be a really effective 
program for small cities--like Flint, Michigan; West Memphis; 
Little Rock; Camden; Newark; and Wilmington--to access cutting-
edge tools from law enforcement to partner with other agencies 
around the region and country and to make progress.
    Our own Wilmington Police Department has had their 
clearance rate for homicides jump from an abysmally low rate to 
now 50 percent, and they are making real progress in cold 
cases. I just want to specifically thank the Office of Justice 
Program grants (OJP) Bureau of Justice Assistance, and the team 
leader in Wilmington, John Skinner.
    I hope you can commit to continuing this program. It is 
vanishingly small in the scope of your total budget. I think 
the line item was $5 million, and I think we have gotten a real 
bang for our buck. I hope you will come and visit Wilmington 
and see its impact, and I hope you will continue to support it.
    Let me mention one other program. The Victims of Child 
Abuse Act funding, 2 years ago Congress on a bipartisan basis 
unanimously reauthorized the programs that come under the 
Victims of Child Abuse Act. The Child Advocacy Centers that are 
funded under this law conduct forensic interviews of those who 
are victims of child abuse in a way that is both respectful of 
the significant needs of child victims, but also meets law 
enforcement needs.
    I was very disappointed to see the President's budget once 
again request only half of the amount required for these 
programs, so I would like to hear your views on whether these 
are both of value, the Child Advocacy Centers and the Violence 
Reduction Network, and whether you think they are worthy of 
more robust funding and support in the years ahead.
    Attorney General Lynch. Thank you, for your comments on the 
work we are doing in Wilmington. And thank you also for raising 
the issue of the child abuse centers.
    Certainly, it is an important issue for us. We have it 
contained within a whole host of juvenile justice issues in 
which that program is housed. The total budget is $334 million, 
which is an increase over the current budget levels. So we are 
looking essentially at trying to, within that framework, fund a 
number of programs there. But it does not mean that we in any 
way view that program as not important or not helpful. So that 
is the comment there.
    Our request for juvenile justice is going to focus on 
formula grant programs such as the Part B formula grants, and 
the Juvenile Accountability Block Grants. We do think that 
those will be effective as well.
    But as I indicated before, it does not mean that we are not 
committed to that program. We are simply trying to work within 
the funding that we have.
    Senator Coons. I understand the complexities of a very 
large agency with lots of different funding streams, but the 
Child Advocacy Centers are a specific law enforcement response 
to a specific problem of child sexual abuse that I think is 
worthy of a specific appropriation.

         JUSTICE REINVESTMENT INITIATIVE AND ACCESS TO JUSTICE

    Let me turn to two other things, if I might. The Justice 
Reinvestment Initiative that has had a strong and positive 
impact also in my home State of Delaware, which is now being 
looked to as a model for justice reinvestment. It helps States 
to fully implement reforms and measure their success through 
data collection and analysis in particular around reentry. If 
we are going to continue our journey toward criminal justice 
reform, we have to do a stronger job of managing reentry, and I 
am glad that your request increases funding for that.
    Last, in Access to Justice, I just want to commend you for 
the $13 million funding request for Access to Justice 
initiatives, indigent defense program for juveniles, for 
adults; a civil legal aid program; and one called Answering 
Gideon's Call that I think is of particular value.
    So I see that my time has about run out, but if you had a 
moment to just tell us how you think these two initiatives--
Justice Reinvestment and Access to Justice--will strengthen 
criminal justice and the ties between law enforcement and 
community, I would be grateful.
    Attorney General Lynch. Thank you so much. I am cognizant 
of the time as well.
    I appreciate those comments, because the people in the 
Department of Justice who work on these issues care very deeply 
about them, as we all care about all of our issues under our 
purview. But in order to make sure that our justice system, 
both criminal and civil, is fair and responsive to everyone in 
this country, it has been clear for years that access to that 
system has to be as open as possible. If individuals do not 
have the ability to adjudicate even small disputes, there is a 
spillover effect in terms of their relationships between and 
among themselves and within the community.
    So having that ability to know that there is a place that 
one could go to deal with even small issues is important. And 
having the resources dedicated to opening that up to everyone, 
be it counsel, be it language issues. Language barriers are a 
tremendous problem for so many individuals who are simply 
trying to advance the business of their lives. Those issues, I 
think it essentially helps us ensure that the promise of 
America remains open and real for everyone and not simply 
behind a door with a sign on it that people cannot read.
    Senator Coons. Thank you, Madam Attorney General.
    Senator Shelby. Senator Murphy.

                  GIRLS IN THE JUVENILE JUSTICE SYSTEM

    Senator Murphy. Thank you, Mr. Chairman.
    I am constantly impressed at your ability to handle the 
remarkable breadth, scope, and variety of questions that you 
get at these hearings. I have three to add to the list. I 
appreciate your indulgence.
    The first is on a program that I know is very dear to your 
heart, and that is our continued efforts to create gender-
responsive juvenile justice systems. In Connecticut, we have 
been a national leader in recognizing that girls, more than 
almost anyone else, tend to get the short end of the stick in 
our juvenile justice system. For instance, a lot of status 
offenders that are girls end up in prisons, simply because we 
do not have gender-appropriate alternatives to incarceration.
    In the 2016 omnibus, there was $2 million for competitive 
grants focused on girls in the juvenile justice system. DOJ, 
you have not requested additional funds for the girls in the 
juvenile justice system program for 2017. I just wanted to ask 
you why that is, if you think that we are still in the process 
of expending those earlier funds or if there are other parts of 
the budget that may help to seed some of the programming like 
that in Connecticut, which really has set some national models 
for how you treat girls in the juvenile justice system.
    Attorney General Lynch. Thank you for that important issue. 
It is, indeed, an important issue, and I actually do not have 
that information at my fingertips now. I would appreciate the 
opportunity to get back to you on that, because it is such an 
important issue.
    [The information follows:]

    The fiscal year 2017 President's budget maintains the fiscal year 
2016 funding level for Girls in the Juvenile Justice System of $2 
million. In fiscal year 2016, the program was funded as a set-aside in 
the Delinquency Prevention Program. The fiscal year 2017 President's 
budget requests $2 million for this program as an independent line 
item.

    I will also note that the issue of how we handle issues of 
gender is something that we take very seriously. We have been 
working with local law enforcement and with OJP. We just 
recently released guidance for State and local counterparts on 
reducing and eliminating gender bias in law enforcement. That 
was a collaborative effort and one that we think is going to be 
very helpful. It focuses not just on issues of domestic 
violence and sexual assault, but how law enforcement deals with 
young people who are dealing with gender issues, particularly 
our lesbian, gay, bisexual, and transgender (LGBT) youth 
community as well.
    So it is something that we take very, very seriously, and I 
would appreciate the chance to respond to your direct question 
with the specifics that I would like to give you.
    Senator Murphy. I know of your personal commitment to this 
issue, so a response on that line item would be helpful.
    Second, I want to turn to the President's executive actions 
to reduce gun violence. You and I have spoken about this.

                         GUN SAFETY TECHNOLOGY

    One of the most interesting parts of it is a directive to 
DOJ, DOD, and Homeland Security to conduct and sponsor research 
into gun safety technology. My hope is that at the end of that 
period of research, that there is an effort to use the 
procurement ability of the Department of Justice, and perhaps 
other agencies, to spur additional private sector research and 
development into smart gun technology. I understand these types 
of weapons are not the answer for everyone in law enforcement 
or in the military, but there certainly is an ability to 
leverage purchasing power on our side to promote research on 
the private side.
    I just wanted to get an update as to how that research is 
going and when we may expect some request for proposal (RFP) 
that prompts some private sector research.
    Attorney General Lynch. Thank you. This is a very important 
issue and has actually been one under consideration within 
government for some time, as law enforcement and, in 
particular, the Department of Defense want to make sure that we 
remain current in the weapons that we provide to our law 
enforcement individuals as well as our Armed Forces 
individuals.
    So for approximately the past 2 years, there has been 
research being done, and the gun manufacturers have been very 
effective partners in this, in developing what are called the 
smart gun technology, various ways of making sure that you can 
limit who can handle a firearm, who can fire a firearm. Of 
course, issues of safety and reliability are at the forefront 
of everyone's minds on this.
    With respect to the President's directive that the 
Department of Justice, Homeland Security, and Department of 
Defense essentially focus on research, that is being done. Just 
within the past 2 months, our research arm, the National 
Institute of Justice, has initiated what they are calling a gun 
safety technology challenge to essentially assess the 
reliability of firearms that are currently available today, 
looking at the advanced gun safety that is integrated into the 
firearm, but also challenging our manufacturers, challenging 
our end-users to really focus on this issue and come up with 
the best product. We do not have a timetable yet for when we 
might be at the RFP stage.
    Certainly, we are aware that with the large purchasing 
power of law enforcement and the Defense Department that we 
could influence this. But of course, we want to make sure those 
guns are as safe and reliable as possible.
    Senator Murphy. I appreciate that. As you know, 
manufacturers and retailers in the private sector who have 
attempted to lead on this issue of gun safety technology have 
been regularly blacklisted. It is a chilling mechanism on those 
who want to pursue this without some pressure coming from the 
Federal Government, some backstops, cover from the Federal 
Government, so I appreciate your work and your seriousness on 
this. Thank you very much.
    Senator Shelby. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    And thank you very much for being here. I know that you 
have a lot going on, but this is really so very important.
    I think this has been a good hearing. We covered a lot of 
ground.
    I just want to reiterate, we talked in January about the 
Equitable Sharing Program. I know that several people brought 
that up today. I think that really does illustrate that it 
really is on our minds. Certainly, I know that you are working 
hard to get it straight. Anything that we can do as a 
subcommittee, I think I speak for all of us, we would certainly 
be glad to do that.

               U.S. MARSHALS REGIONAL FUGITIVE TASK FORCE

    A couple things that have not been mentioned that are just 
kind of things that are of some concern. I understand the U.S. 
Marshals are requesting funding for an additional regional 
fugitive task force. Can you explain the importance of the 
program and explain where it would be located?
    Attorney General Lynch. Thank you so much.
    The regional task forces have been an important part of our 
violence reduction program over the past year. We find them to 
be a very effective counterpart to our State and local efforts 
at law enforcement. One of the things that we are looking to do 
is make sure that we do our part in keeping local communities 
as safe as possible. Where there are violent fugitives who, 
frankly, are often hiding in plain sight, but the local law 
enforcement agencies do not have the resources to track or 
apprehend them, the Federal Marshals Service will step in. In 
fact, that was one of the main reasons for the creation of the 
U.S. Marshals Service, that they tracked fugitives, and they 
are very good at it. I am very proud of the work that they do.
    So where we have been able to do that over the past year, 
we have seen an effective increase rate in capturing fugitives 
in communities across the country with the current task forces 
that we have. And we feel that adding this additional task 
force would help many communities who have this issue.
    I am not exactly sure if I know where that would be located 
at this time. I will get back to you if I have that 
information.
    [The information follows:]

    The fiscal year 2017 budget proposes opening an additional U.S. 
Marshals Regional Fugitive Task Force in the Carolinas.

    But essentially, it provides not just the manpower but the 
intelligence, the surveillance, all the information that goes 
into managing this difficult issue and obviously a dangerous 
issue. We have, of course, had some serious officer wounding 
situations resulting from these apprehensions.
    But it is a cause they take very seriously. I take it very 
seriously. And I thank you for raising it, because I am 
tremendously proud of the work that they do.
    Senator Boozman. Very much so.

                               ATF HIRING

    One of the things we hear a lot about is the National 
Firearms Act applications. I think you have addressed it 
somewhat in the sense of hiring ATF personnel.
    Can you tell us how many people the agency intends to hire? 
Will they all be special agents, and specifically, will any of 
them be used to decrease the waiting period of the National 
Firearms Act?
    Attorney General Lynch. Thank you, sir.
    The request for the ATF, $54.3 million, would provide 230 
positions for ATF. Two hundred would be a combination of 
Special Agents and Industry Operation Investigators--80 agents, 
120 investigators.
    The investigators are the individuals who primarily work 
with our licensed firearms dealers and community members. They 
man a booth at a gun show, for example, and provide 
information. The Special Agents will be focused on the 
enforcement operations involving violent crime, as I mentioned 
before, the rise of Internet firearms trafficking, and 
providing assistance to our State and local colleagues where 
they have serious firearms problems also.
    The other individuals will be working within NIBIN network, 
which is our National Integrated Ballistics Information 
Network. It would upgrade the imaging hardware and software. 
That is where we share information across law enforcement 
platforms with State and locals as well, when we apprehend 
individuals when we come across firearms evidence.
    In fact, 22 positions would support processing of all the 
license issues, which is the firearms licensees, the explosive 
licensees, as well as the National Firearms Act applications. 
We felt that it was important to increase the individuals who 
were processing those licenses because, number one, we may be 
asking more individuals to apply to be licensed dealers, but 
also under the National Firearms Act, we have had a backlog in 
recent years in that area. So in order to be able to 
effectively process these as we ask individuals to essentially 
apply as individuals, we are requesting those resources.
    Senator Boozman. Thank you.
    Thank you, Mr. Chairman.
    Senator Shelby. Senator Graham, any questions?

                             SEQUESTRATION

    Senator Graham. Thank you very much.
    Senator Shelby. Just in time.
    Senator Graham. Which is unusual for me.
    Madam Attorney General, how bad is sequestration hurting 
your ability to defend the Nation and protect us domestically 
and internationally, if it goes back into effect?
    Attorney General Lynch. Senator, the most recent example of 
sequestration that we saw had the department losing 
approximately, I believe, 6,200 people, a combination of 
agents, attorneys, and staff members as well. That is a loss 
from which we have yet to recover, quite frankly.
    Senator Graham. Would there be more losses occurring, if 
sequestration kicks back in?
    Attorney General Lynch. There would be. There would be 
significant losses occurring, particularly at the investigative 
law enforcement level, if sequestration were to occur again. 
This would severely limit our ability to deal with the emerging 
areas and expanding areas of cybercrime, in particular 
international organized crime. And it would severely decrease 
our ability to provide the resources to our State and local 
counterparts that are so important to them as well.
    Our grants were cut in half during sequestration. That was 
tremendously painful not just for the department but for those 
individuals who depend on those grants to fund operations and, 
frankly, help us with task force type operations.
    Senator Graham. Is the FBI fairly much under siege trying 
to track all the groups that could penetrate the homeland?
    Attorney General Lynch. Well, the FBI will tell you that 
they will respond to every crisis, and they do. I am 
tremendously proud of the work that they do. But the reason we 
are requesting more resources, particularly in the area of 
cybercrime, is because this is an area in which we need the 
resources to keep up with the technological capability of the 
criminals, which quite frankly is growing exponentially.

                           EXECUTIVE ACTIONS

    Senator Graham. So let's talk about executive action. If 
the President tomorrow issues an executive order to transfer 
prisoners out of a Guantanamo Bay, given the restrictions 
Congress has placed in the NDAA, would that be appropriate or 
lawful?
    Attorney General Lynch. Senator, I do not believe that is 
the President's intention at this point.
    Senator Graham. I know. But does he have that power?
    Attorney General Lynch. At this point, I have not been 
asked to opine on that by him. I certainly haven't provided 
advice on that.
    Senator Graham. Can I ask you to opine for me? You do not 
have to do it right this minute.
    Attorney General Lynch. Thank you, sir. As I have 
indicated, the current state of the law prohibits those 
transfers, which is why the President is indicating he wants to 
work with Congress to look at those statutory issues.
    Senator Graham. Did he talk to you--did you help draft this 
proposal that was sent over?
    Attorney General Lynch. No, sir. That was, I believe, the 
Department of Defense.
    Senator Graham. Did they talk to you at all?
    Attorney General Lynch. No, I was not involved in those 
discussions.
    Senator Graham. Okay. Interesting.
    I am going to ask you, does he have that authority, from 
the Attorney General's point of view? You can just write back 
to me later. Is that fair?
    Attorney General Lynch. Thank you, sir.
    Senator Graham. Thank you.
    Executive action. The President has given legal status to 
how many million people who are here illegally?
    Attorney General Lynch. I am sorry?
    Senator Graham. The legal status given to illegal 
immigrants, how many people have been affected by his executive 
orders?
    Attorney General Lynch. Sir, I do not have those numbers at 
the top my head.
    Senator Graham. There are two groups. The Deferred Action 
for Childhood Arrivals (DACA) kids, who came here as small 
children, right?
    Attorney General Lynch. Well, I believe that they would 
have deferred status.
    Senator Graham. Right. And now it is their families, is 
that right? What he did the second time?
    Attorney General Lynch. Well, I believe that particular 
action is currently enjoined, so none would have been provided.
    Senator Graham. But he tried to do it, and the court said 
slow down. Is that fair to say? That he has been enjoined from 
doing what he thought he could do?
    Attorney General Lynch. Yes, that injunction is----
    Senator Graham. He thought he had the legal authority.
    What limits would there be on a President, in terms of just 
giving legal status to people here illegally? Are there any 
limits that you can think of?
    Attorney General Lynch. Senator, I certainly think that, as 
we have discussed previously, when it comes to immigration 
laws, one starts with the statutes and then one looks at the 
court decisions. As you craft policy, you will have to look at 
those particular issues as well as any applicable regulations 
to determine whether or not----
    Senator Graham. Is there any court decision that would 
allow the President of the United States--any President--to 
issue an executive order to say that 3 million people here 
illegally now have legal status? Is there any Supreme Court 
case that would acknowledge Article I power to do that, that 
you know of?
    Attorney General Lynch. Senator, I am not aware that issue 
has been presented to the court, certainly, so I would not be 
able to give you that information now.
    Senator Graham. Okay. From your point of view, 
prosecutorial discretion is, ``I could prosecute somebody, but 
I choose not to for a variety of reasons,'' right?
    Attorney General Lynch. That is part of it, sir.
    Senator Graham. Okay. Isn't this different from saying, ``I 
am not going to prosecute you because I choose not to,'' versus 
giving you legal status? Is that prosecutorial discretion, to 
give some legal status?
    Attorney General Lynch. Senator, prosecutors do not have 
the authority to confer or take away a status regarding 
immigration or any other legal issue. That is determined by 
statute and by the courts.
    Senator Graham. What makes the President different than a 
prosecutor, in that regard? What authority does he or she have 
to do that? Because prosecutorial discretion is not the legal 
basis. I think you are right about that.
    And I will wrap this up. If you can't do it through 
prosecutorial discretion, a prosecutor can't, what authority 
does the Chief Executive have, inherit statutory or Supreme 
Court decision-wise, to allow him to do this?
    Attorney General Lynch. When you say ``this,'' sir, what 
are we referring to?
    Senator Graham. What he did, give legal status to millions 
of people by executive action.
    Attorney General Lynch. Well, Senator, I am not aware that 
is the actual result of that. Certainly, I would have to refer 
you to----
    Senator Graham. I know our time is up, but he did give 
legal status to millions of people who I am willing to deal 
with through the statutory process. He did that, didn't he, the 
President?
    Attorney General Lynch. I am not going to be able to give 
you a legal opinion on the effect as----
    Senator Graham. I am not asking your legal advice. I am 
just saying that is what he did.
    I mean, he did that. He issued an executive order saying 
you can stay here, didn't he?
    Attorney General Lynch. I would have to refer you to the 
terms of the executive order.
    Senator Graham. Okay. Thank you.
    Senator Shelby. Thank you, Senator Graham.

                     ADDITIONAL COMMITTEE QUESTIONS

    If there are no further questions this afternoon, Senators 
may submit additional questions for the subcommittee's official 
hearing record.
    We request, Madam Attorney General, the Department of 
Justice's responses within 30 days.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted to Hon. Loretta E. Lynch
            Questions Submitted by Senator Richard C. Shelby
    Question 1a. Why does the administration fail to recognize--and 
subsequently fail to support--the valuable work that TEDAC 
accomplishes?
    Lead-in information from original document.--
          Recently, I joined FBI Director James Comey at a ribbon 
        cutting event for the Terrorist Explosive Device Analytical 
        Center--or TEDAC--which is America's single Federal laboratory 
        and repository for terrorist improvised explosive devices, or 
        I.E.D.'s. Counterterrorism is a top priority for this 
        subcommittee, and the work TEDAC conducts is critical given 
        that I.E.D.'s are still prevalent and dangerous tools used by 
        terrorists at home and abroad. Even the President acknowledged 
        the importance of gathering explosive intelligence against 
        terrorists during his press conference regarding Guantanamo 
        Bay. He specifically cited the successful prosecutions of the 
        shoe bomber, the terrorist who tried to blow up a plane over 
        Detroit, the terrorist who put a car bomb in Times Square, and 
        the Boston Marathon bomber. The explosives forensics 
        investigations that led to the convictions of these terrorists 
        were conducted by TEDAC personnel. So you can understand my 
        disappointment with the Department's 2017 budget request that 
        includes a $74 million reduction-in-base to TEDAC, a $9 million 
        rescission of prior year funds for TEDAC operations, and no 
        money requested for TEDAC construction, which is a reduction of 
        $52 million below the fiscal year 2016 level.

    Answer. The Department appreciates the additional funding provided 
in the fiscal year 2016 Omnibus. The resources will provide mostly non-
personnel and some positions to enhance important programs like TEDAC 
and HDS. The FBI will add 30 positions to the footprint at Redstone 
Arsenal, as reported in the fiscal year 2016 Spend Plan; however, the 
FBI is committed to maintaining these positions from within base 
resources in fiscal year 2017 if required. The $52 million in 
construction resources for TEDAC funded specific construction 
requirements in fiscal year 2016.
    While the Department's fiscal year 2017 budget request includes a 
$74 million program non-recur for the fiscal year 2016 increases, only 
a portion applies to TEDAC. Additionally, the request includes a $9 
million rescission of excess prior year TEDAC balances, but will not 
reduce TEDAC operations. Further, prior year funding provided for 
construction of projects at TEDAC is sufficient to fulfill the 
construction needs of the facility.

    Question 1b. What metrics was the administration using when 
deciding to cut counterterrorism funding such as TEDAC?
    Lead-in information from original document.--
          Recently, I joined FBI Director James Comey at a ribbon 
        cutting event for the Terrorist Explosive Device Analytical 
        Center--or TEDAC--which is America's single Federal laboratory 
        and repository for terrorist improvised explosive devices, or 
        I.E.D.'s. Counterterrorism is a top priority for this 
        subcommittee, and the work TEDAC conducts is critical given 
        that I.E.D.'s are still prevalent and dangerous tools used by 
        terrorists at home and abroad. Even the President acknowledged 
        the importance of gathering explosive intelligence against 
        terrorists during his press conference regarding Guantanamo 
        Bay. He specifically cited the successful prosecutions of the 
        shoe bomber, the terrorist who tried to blow up a plane over 
        Detroit, the terrorist who put a car bomb in Times Square, and 
        the Boston Marathon bomber. The explosives forensics 
        investigations that led to the convictions of these terrorists 
        were conducted by TEDAC personnel. So you can understand my 
        disappointment with the Department's 2017 budget request that 
        includes a $74 million reduction-in-base to TEDAC, a $9 million 
        rescission of prior year funds for TEDAC operations, and no 
        money requested for TEDAC construction, which is a reduction of 
        $52 million below the fiscal year 2016 level.

    Answer. Please see the response to 1a.

    Question 2a. If the President feels that State and Federal data 
sharing is so important, why has he proposed to cut funding in recent 
years for grants to States to upgrade criminal and mental health 
records for the National Instant Criminal Background Check System?
    Lead-in information from original document.--
          The President's recent Executive actions on gun control 
        include a call to: ``Ensure States are providing records to the 
        background check system, and work cooperatively with 
        jurisdictions to improve reporting.'' Many of our local law 
        enforcement agencies have limited resources to make technology 
        improvements, and at our hearing in January the subcommittee 
        heard statistics which clarify this need. That's why this 
        subcommittee has consistently provided funding for NICS grants 
        to State and local law enforcement agencies to make the 
        technology upgrades to enable better criminal data sharing. In 
        fact, I recently provided $73 million for these State and local 
        grants in the fiscal year 2016 funding bill, despite the fact 
        that the President had proposed to cut these grants by $18 
        million. Now, unbelievably, the President's fiscal year 2017 
        budget proposes to cut these grants by $23 million on the heels 
        of issuing his Executive actions.

    Answer. Since 2009, $310 million has been appropriated so that more 
records can be entered into our background check systems. In fiscal 
year 2015, 21.3 million background checks were submitted to NICS. 
Meanwhile, the NICS background check system has blocked over 2 million 
purchasers from getting firearms that they are not legally permitted to 
have.
    The Department, through the Office of Justice Program's Bureau of 
Justice Statistics (BJS), administers two grant programs that support 
improvements to criminal history records: the National Criminal History 
Improvement Program (NCHIP) and the National Instant Criminal 
Background Check System (NICS) Act Record Improvement Program or NARIP.
    NCHIP has a broader scope and less restrictive eligibility 
requirements than NARIP and can provide the same support for efforts to 
improve the availability and quality of criminal history records as 
NARIP. The Department is requesting $50 million for NCHIP in fiscal 
year 2017--a $2 million increase over the fiscal year 2016 enacted 
level. In fiscal year 2015, BJS made awards to 38 States and 
territories, totaling $34.2 million through the NCHIP.
    NARIP supports States in providing certain information, 
particularly mental health records that prohibit the purchase or 
possession of firearms, to the NICS. In fiscal year 2017, the 
Department is requesting $5.0 million for NARIP--a $20.0 million 
decrease from the fiscal year 2016 enacted level. In fiscal year 2015, 
BJS made awards to 22 States, totaling $22.7 million through the NARIP.
    Currently, 29 States qualify for funding under NARIP. BJS continues 
to work closely with the Federal Bureau of Investigation (FBI) and ATF 
to assist States in improving their participation in the NICS Index. 
Progress has been limited in States where meeting the NICS eligibility 
criteria requires changes in State laws and regulations. In contrast, 
all 50 States, the territories, and the District of Columbia qualify 
for NCHIP.
    Overall, the fiscal year 2017 request continues these efforts by 
seeking a total of $55 million for the NCHIP and NICS programs.
    The fiscal year 2017 request for these two programs is consistent 
with the President's Executive Actions to Reduce Gun Violence (https://
www.whitehouse.gov/the-press-office/2016/01/04/fact-sheet-new-
executive-actions-reduce-gun-violence-and-make-our). The Executive 
actions are focused primarily on administrative actions that could be 
taken within the Federal Government to make our communities safer from 
gun violence and keeping guns out of the wrong hands. This included 
improving the regulatory and enforcement functions at ATF and 
implementing improvements to the NICS.
    In addition to these grant requests, the department is also asking 
for critical funding to adequately staff the NICS in order to meet the 
increasing volume of Federal checks for a total of $35 million.
    In total, the fiscal year 2017 request continues these important 
efforts by seeking a total of $90 million.

    Question 2b. After our recent January hearing highlighted these 
vital funding needs, why did you, Madam Attorney General, propose these 
cuts to NICS grants in the 2017 budget request?
    Lead-in information from original document.--
          The President's recent Executive actions on gun control 
        include a call to: ``Ensure States are providing records to the 
        background check system, and work cooperatively with 
        jurisdictions to improve reporting.'' Many of our local law 
        enforcement agencies have limited resources to make technology 
        improvements, and at our hearing in January the subcommittee 
        heard statistics which clarify this need. That's why this 
        subcommittee has consistently provided funding for NICS grants 
        to State and Local law enforcement agencies to make the 
        technology upgrades to enable better criminal data sharing. In 
        fact, I recently provided $73 million for these State and local 
        grants in the fiscal year 2016 funding bill, despite the fact 
        that the President had proposed to cut these grants by $18 
        million. Now, unbelievably, the President's fiscal year 2017 
        budget proposes to cut these grants by $23 million on the heels 
        of issuing his executive actions.

    Answer. See the response to Shelby 2a above.

    Question 3a. In such cases, are the settlement payments restricted 
to being used exclusively to remedy the communal harm caused by 
defendants?
    Lead-in information from original document.--
          Concerns have been raised about third-party (or community 
        service) payments in settlements of Federal enforcement actions 
        related to natural resource law violations (oil and chemical 
        spills, negligent fires or discharges, etc.).

    Answer. The Department has long been authorized to manage the 
Federal Government's litigation interests (subject to certain 
exceptions not relevant here)--a responsibility that includes the 
authority to settle or compromise cases upon such terms as negotiated 
by the Department.\1\ This authority, and its long history, is 
described in an opinion by the Department's Office of Legal Counsel 
(OLC).\2\ Pursuant to this authority, the Federal Government has 
entered into settlements or resolutions that involved payments by the 
settling parties to third-party entities.\3\
---------------------------------------------------------------------------
    \1\ See e.g., 28 U.S.C. Sec. 516; United States Attorneys' Manual, 
Section 4-3.100, available at http://www.justice.gov/usam/usam-4-3000-
compromising-and-closing.
    \2\ The Attorney General's Role as Chief Litigator for the United 
States, OLC Opinion January 4, 1982 (see attachment 1 in the appendix 
at the end of the hearing).
    \3\ Application of the Government Corporation Control Act and the 
Miscellaneous Receipts Act to the Canadian Softwood Lumber Settlement 
Agreement, OLC Opinion August 22, 2006 (see attachment 2 in the 
appendix at the end of the hearing).
---------------------------------------------------------------------------
    Community service payments in environmental crimes cases are 
governed by the United States Attorneys' Manual Sec. 5-11.115 ``'Global 
Settlements'; Community Service'' and Sec. 9-16.325 ``Plea Agreements, 
Deferred Prosecution Agreements, Non-Prosecution Agreements and 
`Extraordinary Restitution' "; and the ``Guidance on Restitution, 
Community Service, and Other Sentencing Measures Imposed in 
Environmental Crimes Cases'' (the Guidance) (see all in attachment 3 in 
the appendix at the end of the hearing).\4\ As discussed in section II 
of the Guidance, a prosecutor may consider imposition of community 
service in sentencing only after addressing restitution to identifiable 
victims of the crime and the payment of criminal fines. Once determined 
to be appropriate, the ``community service must have a `nexus,' that 
is, a relationship, to both the geographic area of the crime and the 
environmental medium affected by the crime.'' As the Guidance explains: 
``[A]though the individual victims may not be identifiable, those 
living in the area affected by the crime are benefited by the 
service.'' The Guidance also discusses why community service payments 
to third parties are necessary in some cases: ``Furthermore, because 
the offender itself may not be equipped to implement the community 
service, the offender may provide the funds for another party with 
expertise specifically in the necessary remedial work to carry out 
valuable service that has the required `nexus' to the offense of 
conviction.''
---------------------------------------------------------------------------
    \4\ The Department of Justice's Environment and Natural Resources 
Division has on a few occasions provided for payments to States, 
municipalities, or other governmental entities in civil consent decrees 
approved by the court. Those cases are not included in these responses.

    Question 3b. Does DOJ operate under internal guidance for third-
party payments? If so, when was the internal guidance developed?
    Lead-in information from original document.--
          Concerns have been raised about third-party (or community 
        service) payments in settlements of Federal enforcement actions 
        related to natural resource law violations (oil and chemical 
        spills, negligent fires or discharges, etc.).

    Answer. Yes. See the policies cited in the response to question 3a. 
The relevant portions of the U.S. Attorneys' Manual sections date back 
to 2008. Then-Assistant Attorney General for the Department's 
Environment and Natural Resources Division Ronald J. Tenpas issued the 
Guidance on January 16, 2009.

    Question 3c. When third-parties are used, how does the Department 
identify potential recipients and what minimum qualifications must be 
met?
    Lead-in information from original document.--
          Concerns have been raised about third-party (or community 
        service) payments in settlements of Federal enforcement actions 
        related to natural resource law violations (oil and chemical 
        spills, negligent fires or discharges, etc.).

    Answer. For appropriate environmental cases, the Guidance outlines 
considerations for developing a community service project. These 
include, among others, that the community service amount should not 
exceed 25 percent of the total value of any sanction package; any trust 
fund involved must be managed by a non-Federal entity chosen without 
favoritism; community service must not accrue unintended benefits to 
the defendant; and funds directed to a third party to carry out 
community service must not be used for political or litigation 
activities. The Guidance also directs prosecutors to ``avoi[d] any 
general appearance of impropriety (e.g., a personal affiliation or 
interest in the entity).'' Guidance at 11. The sentencing court must 
approve any criminal plea agreement and any community service in 
environmental crimes cases.

    Question 3d. In the case of the 2010 Deepwater Horizon disaster and 
the third-party payment that resulted from the case's partial 
resolution, what steps has the Department of Justice taken to ensure 
that the funds have, in fact, been used to remedy the communal harm 
caused by the oil spill? Is there a reporting requirement? Can you 
provide examples of how the funds are being used to remedy the harm 
caused by the spill? Why was the third-party in question chosen? Is the 
third-party subject to audit? If so, by whom and under what authority?
    Lead-in information from original document.--
          Concerns have been raised about third-party (or community 
        service) payments in settlements of Federal enforcement actions 
        related to natural resource law violations (oil and chemical 
        spills, negligent fires or discharges, etc.).

    Answer.

    (1)  In the case of the 2010 Deepwater Horizon disaster and the 
third-party payment that resulted from the case's partial resolution, 
what steps has the Department of Justice taken to ensure that the funds 
have, in fact, been used to remedy the communal harm caused by the oil 
spill?

    Judgments entered by the District Court in connection with cases 
involving BP Exploration & Production, Inc. (``BP'') (No. 12-cr-00292 
(E.D. La.)) and Transocean Deepwater, Inc. (``Transocean'') (No. 13-cr-
001 (E.D. La.)) ordered the defendants to make what could be considered 
third-party payments pursuant to the court's discretionary authority to 
impose probationary conditions pursuant to 18 U.S.C. Sec. 3563(b)(22). 
Both BP and Transocean were ordered to make payments to:

  --The National Academy of Sciences (``NAS'') and
  --The National Fish and Wildlife Foundation (``NFWF'').

    (See Order entered against BP dated Jan. 29, 2013 (``BP Probation 
Order'') at  34 (ordering payment of $350,000,000 to NAS) and  35 
(ordering payment of $2,394,000,000 to NFWF); Order entered against 
Transocean dated Feb. 14, 2013 (``Transocean Judgment'') at 5 (ordering 
the payment of $150,000,000 to NAS and $150,000,000 to NFWF).)
    The court orders entered against both BP and Transocean control the 
use of funds given to NAS and NFWF.
    Payments to NAS must be used ``for the purposes of oil spill 
prevention and response in the Gulf of Mexico.'' (e.g., BP Probation 
Order at  34.) NAS executed agreements with both BP and Transocean 
that further specify what the funds must be used for. Specifically, the 
NAS program subsidized by these funds must ``. . . seek to advance 
scientific and technical understanding to enhance the safety of 
offshore oil drilling and hydrocarbon production. . . .'' These efforts 
include ``assessment and evaluation of strategies and technologies with 
the objective of enhancing the protection of human health and 
environmental resources in the Gulf of Mexico and on the United States' 
outer continental shelf.''
    Payments to NFWF must be used to ``conduct or fund projects to 
remedy harm to resources where there has been injury to, or destruction 
of, loss of, or loss of use of those resources resulting from the 
Macondo oil spill.'' (See, BP Probation Order at  37). NFWF must carry 
out or fund that remediation of harm, or reduction of risk to future 
harm such that about one-half of the work or funding goes to specified 
project types related to coastal habitats in Louisiana; the other half 
is allocated by percentage across the other four Gulf States. (Id.) In 
addition, NFWF is directed to consult with the appropriate State and 
Federal resource managers ``to identify and maximize the environmental 
benefits of'' those projects. (Id.) At the sentencing hearings for both 
BP and Transocean, a representative from NFWF informed the District 
Court that NFWF agreed to be bound by the terms of the plea agreements, 
as subsequently entered as orders of the District Court.
    Both NAS and NFWF are recognized as national leaders in their 
respective fields, and have been periodically reporting to both the 
Department of Justice and the Probation Officer about their use of the 
funds received from BP and Transocean.
    Halliburton Energy Services, Inc. (``Halliburton'') also made a 
voluntary and unconditional payment in the amount of $55,000,000 to 
NFWF. Halliburton subsequently pleaded guilty and this payment was 
recognized by the Department of Justice. (See No. 13-cr-00165 (E.D. 
La.).)

    (2)  Is there a reporting requirement?

    NFWF is a congressionally-chartered organization subject to 
statutory auditing and reporting requirements. See 16 U.S.C. Sec. 3707 
(audits and reports to Congress). As noted above, NFWF agreed to be 
bound by the terms of the District Court orders against both BP and 
Transocean, which require that, in addition to its statutory reporting 
requirements, NFWF must provide annual reports ``regarding the status 
and disposition of money it has received . . . until all such money has 
been spent.'' (BP Plea Agreement Ex. B at  37(d).) As noted above, 
NFWF has been providing such reports to the Department of Justice.
    NAS is also a Federal-chartered private corporation. See 26 U.S.C. 
Sec. Sec. 150301, et seq. NAS also entered into separate agreements 
with both BP and Transocean regarding its use of funds received, both 
of which agreements also include reporting and auditing requirements. 
(See, e.g., BP Plea Agreement Ex. B-1, at  14 (periodic and final 
reporting),  15 (publication of a publicly available annual report), 
and  20 (accounting per generally accepted accounting principles and 
annual audit by independent accountant).)

    (3)  Can you provide examples of how the funds are being used to 
remedy the harm caused by the spill?

    NFWF provides information on its Web site about projects it has 
funded. See http://www.nfwf.org/gulf/Pages/gulf-projects.aspx for a 
list of projects funded to date.
    Similarly, information on the Gulf Research Program establish by 
the NAS can be found at http://www.nationalacademies.org/gulf/
index.html.
    The Plea Agreements for BP and Transocean can be found publicly in 
a number of places, including here: http://www.nfwf.org/gulf/Pages/
plea-agreements.aspx.

    (4)  Why was the third-party in question chosen?

    Both NAS and NFWF are congressionally-created organizations, 
nationally-recognized in their fields. They also were willing to take 
on the contemplated work in conformance with subject matter limits, 
reporting requirements, and other terms specified by the plea 
agreements and court orders entered in these cases.

    (5)  Is the third-party subject to audit?

    Yes, as described above.

    (6)  If so, by whom and under what authority?

    As described above, NAS and NFWF are subject to audit under both 
statute and the terms of the judgments imposed by the District Court 
against BP and Transocean.

    Question 3e. In prosecutions of natural resource law violations, 
the Government represents the interests of the communities or parties 
harmed by the violations. In the last 20 years, how many times have 
harmed communities or parties complained through the court, or to DOJ 
directly, that they did not support the remedies instituted or that the 
remedies fell short of correcting the harm inflicted? In each case, 
what was the basis of the objection or concern? In cases where plea 
agreements in prosecutions for natural resource law violations did not 
involve third-party payments to address communal harm, how, 
specifically, in those cases, was communal harm intended to be 
remedied? How would perpetrators be responsible for remedying communal 
harm other than through third-party payments? In cases where communal 
harm was not remedied, what recourse would injured parties or 
communities have to rectify wrongs?
    Lead-in information from original document.--
          Concerns have been raised about third-party (or community 
        service) payments in settlements of Federal enforcement actions 
        related to natural resource law violations (oil and chemical 
        spills, negligent fires or discharges, etc.).

    Answer. The Department's Environment and Natural Resources Division 
is not aware of any case that it has prosecuted where communities or 
individuals who have been adversely affected by an environmental crime 
have complained that the Department failed to seek a result that was in 
their best interests. When there are identifiable victims of crimes as 
defined by the Victims' Rights and Restitution Act, 42 U.S.C. 
Sec. 10607, the Department often seeks court orders of restitution. 
Individuals and organizations directly and proximately harmed by an 
offense can be considered to be crime ``victims"; however, the laws 
addressing crime victims generally do not identify communities as crime 
victims (though individuals within those communities may be victims). 
There are two provisions in the U.S. Code that specifically authorize 
and mandate restitution--18 U.S.C. Sec. 3663 and 18 U.S.C. Sec. 3663A, 
respectively--but they do not include criminal offenses under the 
environmental statutes. Instead, in environmental crimes cases, the 
Department has relied upon 18 U.S.C. Sec. 3563(b)(2), which allows for 
but does not mandate restitution as a special condition of probation or 
supervised release following incarceration.
    When a community has been adversely affected and restitution is 
unavailable or inadequate, the Department has used community service to 
address the environmental impact. For example, community service has 
directed funds to support a community medical clinic where illegal and 
excess air emissions travelled to the community, to pay for medical 
monitoring for people illegally exposed to asbestos, and to clean up a 
stream polluted by an unlawful discharge.
    In many instances, the community requests incorporation of a 
community service payment in a resolution and strongly supports a 
resolution that includes such a payment. An example is United States v. 
Tonawanda Coke, a case involving criminal violations of the Clean Air 
Act and Resource Conservation and Recovery Act in which numerous 
community members, multiple State and local officials, and a Member of 
Congress expressed to the court their support for projects to address 
the harm the violations had caused to the community.
    When a community has been adversely affected, it may also have 
recourse to civil remedies.

    Question 3f. It has been suggested that direct payments to 
individuals harmed, rather than payments to third-parties, is 
preferable in cases involving violations of natural resource law. In 
terms of remedying environmental harm, what difficulties do you foresee 
in limiting restitution to harmed individuals?
    Lead-in information from original document.--
          Concerns have been raised about third-party (or community 
        service) payments in settlements of Federal enforcement actions 
        related to natural resource law violations (oil and chemical 
        spills, negligent fires or discharges, etc.).

    Answer. As noted in the response to question 3a, prosecutors must 
address restitution to identifiable victims of environmental crimes 
before considering the propriety of community service. As the Guidance 
recognizes, however, the ``unique characteristics'' of environmental 
crimes and those who commit them make community service a necessary 
consideration:

        As to those unique characteristics, first, environmental 
        offenses often involve harm that cannot be directly remedied. 
        For example, the actual pollutants unlawfully emitted into the 
        air cannot be recaptured through community service several 
        years after their dispersion. Similarly, pollutants unlawfully 
        discharged into a river cannot be cleaned up long after the 
        current has swept them downstream. Second, individual victims--
        those who actually may have inhaled the contaminated air or 
        been in contact with the polluted river--often cannot be 
        identified.

    Guidance at 3-4.
                                 ______
                                 
            Questions Submitted by Senator Susan M. Collins
    Question 1. Can you explain why the Department continues to target 
the RISS program for cuts, despite the fact that its importance and 
positive impact has been lauded by the Department?
    Lead-in information from original document.--
          During last year's hearing we talked about a very important 
        and successful program called the Regional Information Sharing 
        System, known as ``RISS.'' The program links thousands of 
        criminal justice agencies through secure communications and 
        information sharing services to help combat multi-
        jurisdictional crimes. Last year, we agreed that this system is 
        particularly effective and serves the law enforcement community 
        well. This year's budget request, however, again recommends 
        cutting funding for the RISS program by $10 million.

    Answer. The requested funding level of $25 million for Regional 
Information Sharing Systems (RISS) reflects one of many difficult 
choices made in development of the President's budget. Although the 
RISS program does provide valuable services to State, local, and tribal 
law enforcement, and has done so for a number of years, it is difficult 
to sustain the fiscal year 2016 funding level for this program in the 
face of the many competing priorities the Department is responsible for 
addressing. The fiscal year 2017 request for this program is sufficient 
to sustain its current level of activity and will not result in any 
significant effects on program performance.

    Question 2a. Could you tell us which office or division within the 
DOJ covers scams that have an international component?
    Lead-in information from original document.--
          The Senate Aging Committee, which I chair, recently held a 
        hearing on a new scam that targets seniors who inadvertently 
        become international drug smugglers. We learned from 
        Immigration and Customs Enforcement that at least 145 
        unsuspecting ``couriers'' have been arrested by foreign 
        governments after they became ensnared in this scam, and 30 
        Americans, including one of my constituents--a 77-year old man 
        from Dresden, Maine--are still being held in foreign prisons as 
        a result of their involvement in this type of scam.

    Answer. The Department is working diligently to seek justice on 
behalf of society's most vulnerable victims. These efforts, including 
initiatives to investigate and prosecute international schemes, extend 
across the Department. For instance, the Department's Elder Justice 
Working Group features representatives from the Civil and Criminal 
Divisions, the U.S. Attorney community, and our grant making 
components. As each case is unique, the determination of which entities 
will investigate or pursue a particular matter will depend on the facts 
and circumstances of the matter, and governing law and policies.

    Question 2b. What specific resources from Congress are needed to 
help DOJ combat this growing problem?
    Lead-in information from original document.--
          The Senate Aging Committee, which I chair, recently held a 
        hearing on a new scam that targets seniors who inadvertently 
        become international drug smugglers. We learned from 
        Immigration and Customs Enforcement that at least 145 
        unsuspecting ``couriers'' ``have been arrested by foreign 
        governments after they became ensnared in this scam, and 30 
        Americans, including one of my constituents--a 77-year old man 
        from Dresden, Maine--are still being held in foreign prisons as 
        a result of their involvement in this type of scam.

    Answer. The fiscal year 2017 President's budget includes $101.48 
million to support our Nation's vulnerable populations, who deserve the 
same rights, opportunities, and protections from injustice as the rest 
of society. This includes a program increase for the Civil Division's 
Elder Justice Initiative of $558,000 (2 positions and 1 FTE). This 
increase would allow the Elder Justice Working Group to continue to 
expand its efforts to combat senior fraud and abuse that affects 
millions of older Americans each year, including financial scams 
targeting our Nation's seniors. Additionally, the Criminal Division's 
Organized Crime and Gang Section (OCGS) is involved in identifying and 
targeting transnational organized crime enterprises, including those 
which engage in various criminal schemes that defraud seniors.

    Question 3. Have you made progress in gaining more cooperation from 
countries where criminal scammers are operating? How many cases have 
been extradited?
    Lead-in information from original document.--
          DOJ has explained that the cooperation of the country where 
        criminals are operating is critical to the Department's ability 
        to extradite those criminals to the U.S. for prosecution.

    Answer. The Department of Justice targets criminal drug enterprises 
through the Drug Enforcement Administration (DEA) and handles all 
extradition cases through the Criminal Division's Office of 
International Affairs (OIA). OIA assists prosecutors and law 
enforcement personnel in the United States to secure the return of 
international fugitives to the United States for prosecution. The 
Office coordinates international fugitive matters with the Department 
of State and serves as DOJ's central point of contact for all requests 
for the extradition to the United States of fugitives located abroad. 
Every formal request for international extradition based on Federal or 
State criminal charges must be reviewed and approved by OIA. Moreover, 
OIA works to expand our cooperation with other countries through legal 
trainings and the negotiation of mutual legal assistance treaties.
    DEA personnel assigned to foreign offices focus their investigative 
efforts on major criminal enterprises and Priority Target Organizations 
(PTO), which engage in the highest levels of drug trafficking and/or 
drug money laundering operations that significantly impact drug 
availability in the United States. DEA's ultimate objective is to 
dismantle these organizations so that reestablishment of the same 
criminal organization and their schemes is impossible and the source of 
the drug is completely eliminated.
    The Department continues to work with partner agencies, such as the 
Department of Homeland Security (DHS), to investigate and prosecute 
crimes where appropriate at the Federal level. In fiscal year 2015, OIA 
received 814 requests for extraditions relating to a variety of crimes, 
but none of these extradition requests are for criminals who target 
seniors who inadvertently become international drug smugglers.
                                 ______
                                 
                Questions Submitted by Senator Mark Kirk
    Question 1a. How many arrests were made by these new counter-gang 
units each year since they were formed?
    Lead-in information from original document.--
          This year, there have already been 444 people shot in the 
        city of Chicago and 96 homicides. Chicago police have 
        attributed most of this gun violence to criminal gangs. For 
        this reason, this Committee created counter-gang units ($17.5 
        million over the past 3 years) within each of the United States 
        Marshals Service's Regional Fugitive Task Forces.

    Answer. During the latter part of fiscal year 2014, the United 
States Marshals Service (USMS) established full-time Counter Gang Units 
(CGU) based within each of its seven Regional Fugitive Task Forces 
(RFTFs).
    The CGUs are permanent, full-time enforcement units. Their mission 
is to conduct proactive investigations focused on specific gang sets or 
individual gang members. Working in collaboration with Federal, State, 
and local law enforcement, the CGUs target these specific gang sets 
through active criminal investigations that lead to arrest by the most 
immediate and prosecutorially advantageous method possible. CGUs seek 
to apprehend the most dangerous and violent gang members, collect 
investigative intelligence, seize criminal evidence, and disrupt 
criminal enterprises.
    In addition, the USMS also employs targeted gang initiatives which 
are mobile, short in duration, and cost effective. Under this scenario, 
the USMS works with its State and local law enforcement partners, 
frequently at their request, to identify specific gang sets that are 
vulnerable to strategic targeting. These efforts often focus on 
condensed areas such as housing projects, neighborhoods, or police 
precinct areas. This results in a significant, immediate impact on the 
community at large by removing violent offenders and associated illegal 
guns, narcotics, and currency.
    In fiscal year 2015, the CGUs were responsible for 557 arrests of 
violent gang members and the associated seizure of 112 illegal 
firearms, 43.52 kg of illegal narcotics, and more than $578,000 in U.S. 
currency.
    As of the first quarter in fiscal year 2016, USMS is on pace to 
exceed fiscal year 2015 results. During the first quarter, the seven 
CGUs were responsible for 302 arrests of violent gang members. The CGUs 
also seized 64 illegal firearms, 86.07 kg of illegal narcotics, and 
more than $567,000 in U.S. currency.

    Question 1b. How many arrests were made by the Chicago-based 
counter-gang unit?
    Lead-in information from original document.--
          This year, there have already been 444 people shot in the 
        city of Chicago and 96 homicides. Chicago police have 
        attributed most of this gun violence to criminal gangs. For 
        this reason, this Committee created counter-gang units ($17.5 
        million over the past 3 years) within each of the United States 
        Marshals Service's Regional Fugitive Task Forces.

    Answer. The USMS Chicago-based CGU, which is co-located with the 
Great Lakes Regional Fugitive Task Force (GLRFTF), has taken a 
proactive and collaborative approach to disrupting violent criminal 
street gangs. Since its inception, the GLRFTF-CGU has made 78 arrests 
of violent gang members and has seized 53 illegal firearms, nearly 
three kg of illegal narcotics, and more than $555,000 in U.S. currency 
through their targeted efforts.

    Question 1c. What are the Marshals and the rest of your Federal law 
enforcement agencies doing to remove gangs like the Gangster Disciples 
from neighborhoods like the new National Monument area Pullman?
    Lead-in information from original document.--
          This year, there have already been 444 people shot in the 
        city of Chicago and 96 homicides. Chicago police have 
        attributed most of this gun violence to criminal gangs. For 
        this reason, this Committee created counter-gang units ($17.5 
        million over the past 3 years) within each of the United States 
        Marshals Service's Regional Fugitive Task Forces.

    Answer. The USMS in Chicago leads the GLRFTF, which partners with 
law enforcement agencies in the Chicago metropolitan area to arrest 
violent offenders. Through its CGU, the GLRFTF coordinates with the 
Chicago Police Department; the United States Attorney's Office; Cook 
County State Attorney's Office; the Bureau of Alcohol, Tobacco, 
Firearms, and Explosives; the Federal Bureau of Investigation; and the 
Drug Enforcement Administration to address gang violence within 
Chicago.
    The CGU's efforts include investigations of criminal activity by 
gang members, intelligence collection from sources, and the 
dissemination of gathered intelligence to law enforcement partners. 
This collaboration ensures that partners are deconflicting 
investigative targets and tasking their work product in the most 
effective manner possible. Additionally, in an effort to mitigate the 
risk of pursuing and arresting gang members and violent criminals, the 
GLRFTF trains over 1,000 law enforcement officers each year in its 
Chicago training center.
    The Pullman District National Monument neighborhood is a large 
industrial area which, like many Chicago neighborhoods, has been 
plagued by gang activity and other violence. Similarly, the Gangster 
Disciples is just one known street gang that is active throughout the 
City of Chicago. Since October 1, 2014 (the first full fiscal year for 
which CGU data is available), 161 documented members of the Gangster 
Disciples have been arrested by the GLRFTF (including the CGU), with 
176 warrants cleared.

    Question 1d. How does the DOJ plan to focus resources, including 
grants, on areas plagued by violence caused by gangs of national 
significance? What metrics does the Department use to determine which 
areas to focus resources?
    Lead-in information from original document.--
          This year, there have already been 444 people shot in the 
        city of Chicago and 96 homicides. Chicago police have 
        attributed most of this gun violence to criminal gangs. For 
        this reason, this Committee created counter-gang units ($17.5 
        million over the past 3 years) within each of the United States 
        Marshals Service's Regional Fugitive Task Forces.

    Answer. Combating violent crime and gangs of national significance 
remains a top priority of the Department. The Violence Reduction 
Network (VRN) is a comprehensive partnership that brings together local 
law enforcement agencies with multiple DOJ components, including the 
Office of Justice Programs (OJP), the Federal Bureau of Investigation 
(FBI), the Drug Enforcement Administration (DEA), the U.S. Marshals 
Service (USMS), the Bureau of Alcohol, Tobacco, Firearms and Explosives 
(ATF), the Executive Office of the U.S. Attorneys (EOUSA), the Office 
of Community Oriented Policing Services (COPS), and the Office on 
Violence Against Women (OVW). The partnership leverages programmatic 
and training and technical assistance resources to assist VRN cities, 
including Chicago, with sustained high rates of violence. Deputy 
Attorney General Sally Q. Yates announced on March 1, 2016 that three 
new cities--New Orleans, Louisiana, St. Louis, Missouri, and Milwaukee, 
Wisconsin--will be joining the VRN in fiscal year 2016. The Department 
is requesting $5 million in dedicated funding in the fiscal year 2017 
President's budget to support the continued expansion of the VRN.
    The Violent Gang and Gun Crime Reduction Program (also known as 
Project Safe Neighborhoods) is designed to create safer neighborhoods 
through a sustained reduction in gang violence and gun crime. This 
program's effectiveness is based on the cooperation of local, State, 
and Federal agencies through a collaborative task force led by the 
local U.S. Attorney. Each U.S. Attorney's Office (USAO) is responsible 
for implementing Project Safe Neighborhoods (PSN). USAOs work closely 
with their Federal partners, including FBI, ATF, USMS, and DEA, as well 
as local law-enforcement agencies to bring criminal gangs to justice. 
Each task force implements gang violence and gun crime enforcement, 
intervention, and prevention initiatives within the most violent 
neighborhoods in the areas they serve based on the five key elements: 
(1) partnerships, (2) strategic planning, (3) training, (4) outreach, 
and (5) accountability. In the fiscal year 2017 President's budget, the 
Department is requesting $5 million to continue the work of this 
program.
    The fiscal year 2016 Violent Gun and Gang Crime program 
solicitation is currently open for applications and will close on May 
17, 2016. For more details, please refer to the solicitation online at 
https://www.bja.gov/Funding/PSN16.pdf. OJP anticipates that awards 
under this solicitation will be announced by late summer of 2016.
    To determine in which areas resources will be focused, OJP bureaus 
and offices use the same general process in identifying criteria by 
which competitive discretionary grant awards are made. Each grant 
solicitation will identify the specific criteria used. For grant 
programs focusing on gang violence and prevention, OJP does not have a 
threshold of crime that is used to make determinations of eligibility 
for funding. While solicitations do ask applicants to include ``gun and 
gang'' crime data, OJP does not require that an applicant's crime rates 
exceed national averages. Instead, we require that applicants show that 
they have a significant gun and gang issue and leave it to them to 
describe the severity of that issue. Some solicitations have required 
geo-spatial analysis of violence, but have not required a per capita 
de-minimis.
    During the peer review process, reviewers may factor in local 
Uniform Crime Report (UCR) rates and specific crime data in their 
application ratings. Additionally, other Federal agencies are often 
consulted as part of the recommendation process. For example, as part 
of the review of Project Safe Neighborhoods site-based applications, 
the Bureau of Justice Assistance in OJP consults with EOUSA, the 
Department of Justice's Criminal Division, FBI Safe Streets Task 
Forces, and the National Gang Intelligence Center personnel to provide 
a more detailed understanding of the sites' gang and gun issues.
    Additionally, Federal agencies located in the Northern District of 
Illinois employ a vigorous antiviolence strategy in Chicago. 
Representatives from the USAO, FBI, ATF, USMS, DEA, High Intensity Drug 
Trafficking Area (HIDTA), and Organized Crime Drug Trafficking 
Enforcement Task Forces (OCDETF) meet regularly with local city, 
county, and State law-enforcement agencies to assess Chicago's greatest 
violent-crime threats, target the worst of the worst offenders and gang 
leaders, and deploy the resources necessary to apprehend and prosecute 
violent criminals. This coordinated effort relies on ongoing data 
assessments from Federal agencies and the Chicago Police Department. 
Deployments may be neighborhood-based, where there may have been a 
prevalence of recent shootings, or targeted on individuals whom 
agencies have identified as having a connection to violence. Federal 
agencies are particularly focused on stopping trigger-pullers and 
individuals responsible for driving violence in Chicago, and have taken 
proactive measures to prevent violence. Among these measures, the USAO, 
Cook County State's Attorney's Office, ATF, and the Chicago Police 
Department have hosted offender-notification meetings, which target 
parolees whom data have revealed are at-risk of reoffending or becoming 
shooting victims themselves, and strategic violence-reduction ``call-
ins,'' which present a focused-deterrence, group-accountability message 
to gang-involved individuals. Academic evaluations of both the 
offender-notification meetings and the group-accountability call-ins 
show success in the form of a reduction in recidivism and overall gun 
violence. The USAO is attempting to replicate this success with a 
similar intervention targeting juveniles.
    The Department's Law Enforcement Components, ATF, DEA, FBI, and 
USMS, utilize the multi-jurisdictional task forces they operate or 
participate on to combat violent and gang crime. The National Gang 
Targeting, Enforcement and Coordination Center (GangTECC) within DEA's 
Special Operations Division (SOD) combines the abilities of its member 
agencies (Federal Bureau of Investigation, U.S. Marshals Service, and 
Bureau of Alcohol, Tobacco, Firearms and Explosives) to coordinate 
information and enforcement activities to disrupt and dismantle 
regional, national, and international gang threats. More locally, 
enforcement efforts are focused through an understanding of the local 
crime trends. ATF, for example, uses its intelligence-driven domain 
assessments to identify and analyze significant violent crime problems 
within each field division's area of responsibility. Field Divisions 
propose a plan of action within the limits of available resources to 
mitigate or eliminate these threats. Similarly, the FBI's Violent Gang 
strategy is designed to reduce gang related violence by identifying, 
prioritizing, and targeting the most violent gangs whose activities 
constitute criminal enterprises. In addition, OCDETF has concentrated 
its efforts to reduce violence caused by significant gang activity in 
the Chicago metropolitan area through its co-located Chicago OCDETF 
Strike Force. Its participants include multiple Federal law enforcement 
officers from DEA, FBI, IRS, DHS/ICE, USMS and the United States 
Attorney's Office for the Northern District of Illinois, along with the 
Cook County State's Attorney's Office, the Chicago Police Department, 
the Illinois State Police, and multiple other State and local law 
enforcement agencies.
    The Chicago OCDETF Strike Force conducts long-term, intelligence-
driven investigations and prosecutions involving multiple defendants, 
who participate in violent criminal organizations operating throughout 
the metropolitan area, the Northern District of Illinois and 
surrounding Federal districts. The primary goal of the Strike Force is 
to disrupt and dismantle major drug trafficking, money laundering and 
criminal organizations, to reduce both the availability of drugs and 
violent crime in the area. It accomplishes this goal by aggressively 
targeting the highest level criminal organizations engaged in this 
activity, including those designated as Consolidated Priority 
Organization Targets (``CPOTs'') and Regional Priority Organization 
Targets (``RPOTs'') and their affiliates throughout Chicago and the 
Federal district in which it is located.
    By targeting the distribution of controlled substance by Mexican 
drug trafficking organizations to Chicago-based street gang networks, 
the Chicago OCDETF Strike Force is able to cut off the movement and 
supply of firearms associated with violent criminal activity, along 
with the illicit proceeds generated at the retail level which fuel the 
criminal activities of the command and control elements of the major 
drug trafficking organizations operating along the Southwest Border of 
the United States. A key unit within the Chicago OCDETF Strike Force is 
the Choke Point Unit, which targets the intersection between the 
Mexican drug trafficking organizations and violent street gangs, who 
are the customers of the Mexican organizations and the primary 
distributors of drugs throughout the Chicago area.
    Currently, the Chicago OCDETF Strike Force is targeting the illegal 
activities of the Conservative Vice Lords street gang, among others, 
whose activities span throughout Illinois, Iowa, Indiana, Wisconsin and 
Michigan and whose members are believed to be responsible for numerous 
murders, weapons violations, intimidation and the distribution of 
multi-kilogram quantities of heroin, cocaine, crack, and marijuana 
throughout Metropolitan Chicago.
    By coordinating the efforts of multiple Federal agencies, the 
members of the Chicago OCDETF Strike Force are able to eliminate 
superfluous effort, save valuable resources and produce the most 
successful cases against national, and international, criminal 
organizations.
    Additionally, OCDETF's Great Lakes Region has identified and 
targeted 18 organizations, including 13 Regional Priority Organization 
gang targets, who engage in violence to both protect and expand their 
drug sales territories, to fend off rival gangs, and to enforce gang 
rules within their ranks, such as the Black Disciples, Black P Stone 
Nation, Bloods, Gangster Disciples, Insane Spanish Cobras, Latin King 
Nation, Surenos, and Vice Lords. During fiscal year 2015, OCDETF's 
Great Lakes Regional Gangs Strategic Initiative demonstrates its 
commitment to targeting drug trafficking organizations that engage in 
criminal activities such as firearms/weapons violations, murder, 
material support to terrorist groups, or other violent activity. In 
fiscal year 2015, the Gangs Strategic Initiative led to the indictment 
of 362 defendants, as well as conviction of 396 defendants. The Chicago 
U.S. Attorney alone has investigated more than 30 OCDETF gang cases 
since 2013.
    As part of the fiscal year 2017 President's budget, the Department 
requests $31 million to enhance USMS enforcement operations, hire 
additional Deputy U.S. Marshals (DUSMs), establish a new Regional 
Fugitive Task Force and provide equipment and training to existing 
DUSMs to support their violent fugitive enforcement efforts. The 
Department is also requesting $36 million for additional ATF special 
agents and industry operations investigators to enforce existing 
Federal firearms laws, take violent criminals off the street, prevent 
firearms from getting into the wrong hands, and enhance ATF's ability 
to perform its regulatory duties.
    Finally, DOJ's Criminal Division (CRM) focuses on the most serious 
violent offenders as targets for Federal prosecution, working closely 
and collaboratively with law-enforcement partners. CRM's Organized 
Crime and Gang Section prosecutes gangs of national significance, 
participates in the formulation and implementation of criminal 
enforcement policy, and provides advice and assistance to law-
enforcement agencies and USAOs to thwart those gangs, including the 
USAOs in Illinois.

    Question 2a. Why has DOJ not prosecuted Backpage.com in the same 
way it did My-Redbook.com?
    Lead-in information from original document.--
          Human trafficking is a growing problem nationally and 
        internationally. Last month, 35 Illinois police and sheriff 
        departments wrote to you asking for help in bringing a halt to 
        the Nation's sex trafficking enterprises. Unfortunately, 
        organizations like Backpage.com continue to traffic in children 
        and young women without impunity and make millions of dollars 
        each year off of these transactions. DOJ was successful in 
        prosecuting, and convicting My-Redbook owner, Eric ``Red'' 
        Omuro for similar actions.

    Answer. The Department shares Congress' grave concerns about the 
role of Web sites in the commercial sexual exploitation of minors. As 
with all investigations and prosecutions, we will follow the evidence 
where it leads. The Department has vigorously pursued sex traffickers, 
including those who use the Internet to illegally exploit minors, and 
thoroughly investigates Web sites that may be aiding and abetting child 
sex trafficking. Where evidence of criminality exists, the Department 
will aggressively investigate offenses of this kind. When we can prove 
violations beyond a reasonable doubt, as we could with respect to the 
case against Eric Omuro and myRedBook.com, the Department will bring 
appropriate prosecutions.
    DOJ routinely prosecutes sex traffickers who use Web sites to 
advertise their victims for prostitution. For example, DOJ's Child 
Exploitation and Obscenity Section (CEOS) and the U.S. Attorney's 
Office for the Middle District of Louisiana are currently prosecuting 
five members of a sex trafficking ring. This case arose out of an 
undercover operation to locate a juvenile female engaged in 
prostitution. Investigators received a tip that the juvenile was being 
trafficked by a pimp in Baton Rouge and was advertised online. The 
undercover operation resulted in the arrests and subsequent 
prosecutions of several individuals for sex trafficking related 
offenses. In September 2015, Jeremie Tate, the leader of the sex 
trafficking ring, was sentenced to 115 months in prison for operating 
an interstate prostitution enterprise. Tate had earlier pleaded guilty 
to conspiracy to unlawfully use interstate facilities in aid of 
racketeering, two counts of use of interstate facilities in aid of 
racketeering and enticing another to travel interstate for 
prostitution. In connection with his plea, Tate admitted that he 
operated a prostitution business based in Baton Rouge involving at 
least one minor. Tate admitted that he personally recruited individuals 
to engage in prostitution and advertised for and scheduled prostitution 
sessions. Tate further admitted that he used proceeds from the 
enterprise to purchase controlled substances, which he distributed to 
the victims and others to manipulate and intimidate them.
    In early January 2016, Kellie M. Dominique, who ran the sex 
trafficking ring with Tate, pleaded guilty to conspiring to engage in 
sex trafficking of a minor. Sentencing has not yet been scheduled for 
Dominique. In connection with her plea, Dominique admitted that she 
conspired with others to promote the prostitution of a minor female out 
of Dominique's home and other venues. Dominique also admitted that 
under her direction, the minor female posted classified advertisements 
on Backpage.com for commercial sex acts in Louisiana and elsewhere. 
Dominique further admitted that she introduced the minor female to 
illegal drugs and used such drugs with the minor female. Three other 
defendants, Jon Garon, Roxanne Merritt, and Payton Shelton, pleaded 
guilty to conspiracy to use interstate facilities to promote a business 
enterprise involving prostitution. These defendants facilitated the 
operation by placing advertisements online to promote the prostitution 
business.

    Question 2b. How is DOJ investigating other websites that may 
involve sex trafficking?
    Lead-in information from original document.--
          Human trafficking is a growing problem nationally and 
        internationally. Last month, 35 Illinois police and sheriff 
        departments wrote to you asking for help in bringing a halt to 
        the Nation's sex trafficking enterprises. Unfortunately, 
        organizations like Backpage.com continue to traffic in children 
        and young women without impunity and make millions of dollars 
        each year off of these transactions. DOJ was successful in 
        prosecuting, and convicting My-Redbook owner, Eric ``Red'' 
        Omuro for similar actions.

    Answer. The Department cannot confirm, deny, or provide information 
on any ongoing investigations. The FBI continuously assesses various 
online platforms/Web sites for their involvement with sex trafficking 
and works with Federal prosecutors to bring cases against those who 
violate relevant Federal statutes. The FBI also reviews open source 
data for information that might be of evidentiary value to existing 
cases and/or justify the initiation of new cases.
    In addition to investigating Web sites that may be connected with 
sex trafficking, the FBI annually conducts Operation Cross Country 
(OCC), a national operation focused on the recovery of juveniles from 
domestic sex trafficking. OCC is part of the overarching FBI Innocence 
Lost National Initiative (ILNI), which addresses the commercial sexual 
exploitation of children. The FBI currently has 72 child exploitation 
task forces throughout the country, which are comprised of 
representatives from local, State, and Federal partners, as well as 
non-profit organizations, and an international task force to combat the 
threat.

    Question 2c. How is DOJ working with local law enforcement to 
attack this issue?
    Lead-in information from original document.--
          Human trafficking is a growing problem nationally and 
        internationally. Last month, 35 Illinois police and sheriff 
        departments wrote to you asking for help in bringing a halt to 
        the Nation's sex trafficking enterprises. Unfortunately, 
        organizations like Backpage.com continue to traffic in children 
        and young women without impunity and make millions of dollars 
        each year off of these transactions. DOJ was successful in 
        prosecuting, and convicting My-Redbook owner, Eric ``Red'' 
        Omuro for similar actions.

    Answer. The FBI is the Department's law enforcement agency 
responsible for investigating and combatting human trafficking crimes. 
This includes investigations in online domains, performing regular 
operations, and maintaining child exploitation task forces. As noted 
above, the FBI currently has 72 child exploitation task forces 
throughout the country, which are comprised of representatives from 
local, State and Federal partners, as well as non-profit organizations. 
The FBI annually conducts Operation Cross Country, a national operation 
focused on the recovery of juveniles from domestic sex trafficking. The 
last iteration of Operation Cross Country took place in 135 cities, and 
involved over 500 law enforcement officials from Federal, State, and 
local agencies.
OJP Programs
    The Office of Juvenile Justice and Delinquency Prevention (OJJDP) 
administers the Internet Crimes Against Children (ICAC) Task Force 
Program, which is part of Project Safe Childhood, a Department 
initiative established to combat the sexual exploitation of children. 
The ICAC Task Force Program is a national network of law enforcement 
and prosecutorial agencies that prevent, interdict, and investigate 
technology-facilitated child sexual exploitation and Internet crimes 
against children. The Program is comprised of 61 coordinated task 
forces representing more than 3,500 Federal, State, tribal and local 
law enforcement and prosecutorial agencies. These agencies are engaged 
in both proactive and reactive investigations, forensic investigations, 
and criminal prosecutions. In May 2011, DOJ expanded Project Safe 
Childhood to encompass all Federal crimes involving the sexual 
exploitation of a minor, including sex trafficking of a minor and 
crimes against children committed in Indian Country. As such, all 61 
task forces receive training related to child sex trafficking, as well 
as investigate and prosecute child sex trafficking crimes within their 
task force regions. In addition, the ICAC Task Force Program partners 
with the National Center for Missing and Exploited Children (NCMEC), 
which is also funded in large part by OJJDP, in investigating 
CyberTipline reports. The CyberTipline receives leads and tips 
regarding suspected crimes of sexual exploitation committed against 
children, including child sex trafficking.
    NCMEC currently has 11 full-time analysts within the Child Sex 
Trafficking Team, four Missing Child Case Management teams and a Child 
Sex Trafficking Specialist dedicated to supporting law enforcement 
working to identify and recover children victimized through sex 
trafficking. NCMEC's comprehensive approach provides analysis, 
technical assistance, victim support services and case management to 
support law enforcement in their efforts to recover victims and build 
strong cases against individuals involved in trafficking children. 
Local and State law enforcement also receive direct technical 
assistance and support on child sex trafficking investigations through 
the request and use of analytical resources at NCMEC. In 2015 NCMEC's 
Child Sex Trafficking Team provided analytical support in response to 
183 requests from local and State law enforcement. These requests made 
by local and State law enforcement may include some officers who are 
also working as part of a Federal task force combating child sex 
trafficking. Local and State law enforcement often request analytical 
support about any information relevant to a child sex trafficking case 
regardless of whether it involves a currently missing child.
Enhanced Collaborative Model Task Force Program
    DOJ's Office for Victims of Crimes (OVC)OVC has administered the 
Victims of Trafficking Program since 2003 providing comprehensive and 
specialized services for victims. In 2010, OVC and the Bureau of 
Justice Assistance (BJA) began funding law enforcement agencies and 
victim services providers through the Enhanced Collaborative Model Task 
Force program. This program supports multidisciplinary task forces with 
Federal, State, and local law enforcement, Federal and State 
prosecutors, service providers, and community- and faith-based 
organizations to ensure that trafficking victims are identified and 
referred for appropriate services, and that these cases are 
investigated and prosecuted. The following link contains a map of 
funded task forces across the country: http://ovc.ncjrs.gov/
humantrafficking/map.html.

    Funding for task forces helps law enforcement agencies and victim 
service providers:

    1.  Create a structure that engages representatives of all 
essential agencies, organizations, and individuals with clear 
operational protocols that outline roles and responsibilities;
    2.  Hold task force meetings at least quarterly;
    3.  Develop plans for routine collection of critical data as well 
as sharing and analyzing data;
    4.  Develop a plan for evaluating task force performance and 
effectiveness and using findings to improve task force performance;
    5.  Develop training and public awareness materials with a shared 
message;
    6.  Ensure that relevant stakeholders receive training;
    7.  Conduct proactive investigations of all forms of human 
trafficking, including sex trafficking and labor trafficking; and
    8.  Assemble a comprehensive array of victim-centered and trauma-
informed services that address the individual needs of victims of all 
forms of human trafficking.

    Question 3a. Under current law can the President legally transfer 
any of these detainees to the United States?
    Lead-in information from original document.--
          Since the administration called for transferring terrorist 
        detainees at Guantanamo Bay to the United States (specifically, 
        to the Thomson Correctional Center in Thomson, Illinois) in 
        2009, Congress has prohibited the transfer of detainees from 
        Guantanamo Bay to the United States and prohibited construction 
        or modification of any Bureau of Prisons facilities designed to 
        house these detainees.

    Answer. The National Defense Authorization Act for fiscal year 2016 
prohibits the Department of Defense from using funds to transfer, 
release, or assist in the transfer or release of individuals detained 
at the Naval Station Guantanamo to or within the United States through 
December 31, 2016. Further, the Fiscal Year 2016 Consolidated and 
Further Continuing Appropriations Act also prohibits the Department 
from using funds to transfer, release or assist in the transfer or 
release of detainees at Naval Station Guantanamo. I understand that the 
President is focused on working with Congress to lift the restrictions 
on transfer and to work to close the detention facility at Guantanamo 
Bay.

    Question 3b. Has the President asked for a legal opinion from the 
Department regarding the transfer of Guantanamo detainees to the United 
States?
    Lead-in information from original document.--
          Since the administration called for transferring terrorist 
        detainees at Guantanamo Bay to the United States (specifically, 
        to the Thomson Correctional Center in Thomson, Illinois) in 
        2009, Congress has prohibited the transfer of detainees from 
        Guantanamo Bay to the United States and prohibited construction 
        or modification of any Bureau of Prisons facilities designed to 
        house these detainees.

    Answer. The Department of Justice has participated in an ongoing 
interagency dialogue regarding responsibly and securely closing the 
detention facility at Guantanamo Bay. Without addressing what requests 
for legal advice the President or others in the administration may or 
may not have made, I can report that, in view of the current 
prohibitions against transfer (see answer 3a), that dialogue has 
included discussions of working with the Congress to establish a 
location in the United States to securely hold detainees who cannot at 
this time be transferred to foreign countries or who are subject to 
military commission proceedings.
                                 ______
                                 
              Questions Submitted by Senator John Boozman
    Question 1a. How do I explain to my fellow Arkansans that your 
Department, whose job is to protect them, is willing to release these 
most violent criminals back on the streets of our communities, and 
lower the sentences for future violent crimes?
    Lead-in information from original document.--
          Your office is supporting Federal sentencing reform that in 
        some cases removes minimum mandatory sentences for some of the 
        most violent offenders in the Federal system, such as armed 
        career criminals, armed robbers, home invaders, and car-
        jackers, and it makes those changes retroactive. It has also 
        claimed that the Bureau of Prison's overcrowding and costs are 
        reasons behind reformation. However, due to the initial batch 
        of 6,000 early released prisoners from the 2014 Sentencing 
        Commissions actions, you were able to close 5 facilities, which 
        is indicated by your budget request's 78.7 percent decrease for 
        BOP buildings and facilities. There is also a $210.8 million 
        dollar ``population decline adjustment.'' Your budget request 
        says, quote, ``The requested offset is due to the anticipated 
        population decline from sentencing reform and fewer Federal 
        prosecutions. This downward population trend is expected to 
        continue into fiscal year 2017.'' On multiple occasions now, 
        you have testified before Congress stating that your top two 
        priorities as Attorney General, are ``the safety of our 
        citizens and our national security.'' Aside from the fact that 
        your own Department states that there will be fewer Federal 
        prosecutions, your own Department also states that the Federal 
        prison population has declined and will continue to decline.

    Answer. It is critical that our sentencing and corrections policies 
protect the public, are fair to both victims and defendants, reduce 
recidivism, and control the prison population. I am proud of the 
progress the Department has made in improving the criminal justice 
system, and I support additional reforms. The Smart on Crime Initiative 
is allowing the Justice Department to help ensure that our sentencing 
laws are sensible, effective, and proportional to the crime; to hold 
offenders accountable; to conserve precious public safety resources; 
and to improve outcomes. We have incentivized crime prevention, 
community oriented policing, and enhanced services for victims and for 
reentry.
    Since the start of the Smart on Crime Initiative, the number of 
Federal drug cases has indeed declined, but the average guideline 
minimum sentence for drug trafficking cases has risen, indicating a 
focus on more serious cases and more significant or violent defendants. 
Moreover, the rate of guilty pleas has risen and, despite concerns 
raised by some, drug defendants have cooperated with the Government at 
the same rate as before the Initiative. There is more work to be done, 
though.
    To most effectively address the issue, congressional action is 
necessary. We applaud sentencing reform legislation that has passed the 
House and Senate Judiciary Committees. The fact that both Democrats and 
Republicans, in both the House and Senate, have advanced reform bills 
shows there is a bipartisan consensus that reform is urgently needed. 
The Department of Justice strongly supports sentencing reform for low-
level, non-violent drug offenders and wants to do everything we can to 
ensure meaningful sentencing reform is enacted this Congress. I am 
hopeful that legislation that combines front-end and back-end reform 
can pass Congress to ensure that we maximize our resources most 
effectively to enhance public safety.

    Question 1b. How do we explain this to the victims of these crimes?
    Lead-in information from original document.--
          Your Office is supporting Federal sentencing reform that in 
        some cases removes minimum mandatory sentences for some of the 
        most violent offenders in the Federal system, such as armed 
        career criminals, armed robbers, home invaders, and car-
        jackers, and it makes those changes retroactive. It has also 
        claimed that the Bureau of Prison's overcrowding and costs are 
        reasons behind reformation. However, due to the initial batch 
        of 6,000 early released prisoners from the 2014 Sentencing 
        Commissions actions, you were able to close 5 facilities, which 
        is indicated by your budget request's 78.7 percent decrease for 
        BOP buildings and facilities. There is also a $210.8 million 
        dollar ``population decline adjustment.'' Your budget request 
        says, quote, ``The requested offset is due to the anticipated 
        population decline from sentencing reform and fewer Federal 
        prosecutions. This downward population trend is expected to 
        continue into fiscal year 2017.'' On multiple occasions now, 
        you have testified before Congress stating that your top two 
        priorities as Attorney General, are ``the safety of our 
        citizens and our national security.'' Aside from the fact that 
        your own Department states that there will be fewer Federal 
        prosecutions, your own Department also states that the Federal 
        prison population has declined and will continue to decline.

    Answer. See response to Boozman 1a. That response is the collective 
response for Boozman 1a and 1b.

    Question 2a. How do these programs target violent offenders, 
illegal firearms traffickers, and dangerous individuals acquiring 
firearms?
    Lead-in information from original document.--
          Federal prosecutions of gun crimes have continually and 
        significantly declined since the President has taken office. 
        Reports show that Federal criminal weapons convictions are down 
        34.8 percent from 2005. In the President's own Executive 
        actions, he stated through the Smart on Crime Initiative, the 
        Department focuses resources on the most impactful cases, 
        including targeting violent offenders, illegal firearms 
        traffickers, and dangerous individuals who bypass the 
        background check system. Now, in your testimony, the funding 
        priorities have appeared to changed. Of the $247 million 
        requested, $91 million is for reentry programs, and $93 is 
        million for general inmate population mental health treatment, 
        Hepatitis C treatment, and sex offender treatment.

    Answer. The Smart on Crime Initiative focuses on effectively using 
Federal resources for the most significant Federal law enforcement 
priorities, including violent crime, rather than prioritizing the sheer 
number of prosecutions. By marshalling our investigative and 
prosecutorial resources more effectively, we see that average sentences 
are increasing as we continue to focus on the most violent and 
dangerous offenders and prevent new offenders from entering the justice 
system. This demonstrates the value of the Smart on Crime Initiative. 
Our request this year features resources for complementary programs 
addressing the second half of the Justice process, after the 
investigation and the prosecution. Through these requests, we are now 
addressing needs that exist in our prison population to further reduce 
recidivism.

    Question 2b. Are the Holder memos that directs Federal prosecutors 
to not charge violations that trigger mandatory minimum sentences 
including drug offenses involving large amounts still in effect?
    Lead-in information from original document.--
          Federal prosecutions of gun crimes have continually and 
        significantly declined since the President has taken office. 
        Reports show that Federal criminal weapons convictions are down 
        34.8 percent from 2005. In the President's own Executive 
        actions, he stated through the Smart on Crime Initiative, the 
        Department focuses resources on the most impactful cases, 
        including targeting violent offenders, illegal firearms 
        traffickers, and dangerous individuals who bypass the 
        background check system. Now, in your testimony, the funding 
        priorities have appeared to changed. Of the $247 million 
        requested, $91 million is for reentry programs, and $93 is 
        million for general inmate population mental health treatment, 
        Hepatitis C treatment, and sex offender treatment.

    Answer. In August 2013, the Department of Justice launched the 
Smart on Crime Initiative, which still reflects current policy. The 
goals of the Initiative are to (1) ensure finite resources are devoted 
to the most important law enforcement priorities; (2) promote fairer 
enforcement of the laws and alleviate disparate impacts of the criminal 
justice system; (3) ensure just punishments for low-level, nonviolent 
convictions; (4) bolster prevention and reentry efforts to deter crime 
and reduce recidivism; and (5) strengthen protections for vulnerable 
populations. Attorney General Holder issued guidance as part of the 
Initiative, which remains in effect, directing prosecutors to decline 
to charge mandatory minimum sentencing statutes for any defendant who 
is a low-level, nonviolent drug offender, who has no ties to large-
scale organizations, gangs, or cartels, and who has no significant 
criminal history. Since the start of the Smart on Crime Initiative, the 
average minimum sentence under the sentencing guideline for drug 
trafficking cases has actually risen, indicating a focus on more 
serious cases and more significant or violent defendants. Moreover, the 
rate of guilty pleas has risen and, despite concerns raised by some, 
drug defendants have cooperated with the Government at the same rate as 
before the Initiative.

    Question 3a. With the President's Executive action to hire over 200 
new NICS examiners, and the FBI already having the funding to do that, 
what is the problem?
    Lead-in information from original document.--
          I have heard from a number of constituents who are concerned 
        with the FBI's reassignment of NICS examiners, leaving no one 
        to work on appeals and creating a massive appeals backlog. 
        These appeals are primarily law abiding folks who happen to 
        have a name, date of birth, or social security number similar 
        to that of a prohibited person.

    Answer. The FBI works diligently to not only hire these positions, 
but resume hiring for the natural attrition that occurs throughout the 
year. While the President's fiscal year 2017 budget included a request 
to hire over 200 new NICS positions (Federal and contractors), it 
remains a multi-year effort. The FBI's fiscal year 2016 operating plan 
funds an additional 75 FBI positions and 68 contractors for NICS, and 
the fiscal year 2017 President's budget includes funding to sustain 
these positions as well as employ additional contractors.
    The FBI has made great strides in hiring these positions. The 68 
contractor positions are already on board, and the FBI hopes to have 
the bulk of the Government positions on board by the end of fiscal year 
2017. Training this many positions poses a significant challenge to 
onboarding. A new NICS position generally requires up to 1 year of on-
the-job experience before reaching full proficiency in the processing 
of firearm background checks. The FBI fully understands the impact of 
temporarily reassigning appeals examiners, but is working to mitigate 
the impact of these temporary reassignments on the appeals workload and 
anticipates the increase in personnel over the next few years will 
significantly diminish the need for this surge in the future.

    Question 3b. Is the FBI going to have examiners work on these 
appeals, and when can we expect that to happen?
    Lead-in information from original document.--
          I have heard from a number of constituents who are concerned 
        with the FBI's reassignment of NICS examiners, leaving no one 
        to work on appeals and creating a massive appeals backlog. 
        These appeals are primarily law abiding folks who happen to 
        have a name, date of birth, or social security number similar 
        to that of a prohibited person.

    Answer. The volume of firearm background checks typically decreases 
during the summer months. As the volume begins to decrease, the FBI 
will return Appeal Examiners to their normal duties of processing the 
appeal requests. In addition, the FBI is in the process of hiring 
Federal Government staff and contractor staff. Once they complete the 
training requirements, these employees will be able to assist with the 
incoming firearm background checks, thus allowing the Appeal Examiners 
to be devoted to processing the appeal backlog.

    Question 3c. Please tell me the amount of appeals cases that are 
currently backlogged.
    Lead-in information from original document.--
          I have heard from a number of constituents who are concerned 
        with the FBI's reassignment of NICS examiners, leaving no one 
        to work on appeals and creating a massive appeals backlog. 
        These appeals are primarily law abiding folks who happen to 
        have a name, date of birth, or social security number similar 
        to that of a prohibited person.

    Answer. As of May 31, 2016 approximately 7,353 appeal cases are 
pending resolution.

    Question 4. In regards to your budget request for $10 million to 
reform the Mutual Legal Assistance Treaty (MLAT) process, can you 
explain to me exactly how you plan to reform that system? Specifically, 
how will the $10 million be spent?
    Lead-in information from original document.--
          I understand that national security is a top priority of the 
        Department, and cooperation with foreign partners in 
        international criminal investigations is critical.

    Answer. In an increasingly transnational criminal landscape, the 
Office of International Affairs (OIA) is at the center of DOJ's law-
enforcement mission, with expertise regarding novel and complex 
international legal issues that arise in the pursuit and prosecution of 
cybercriminals, terrorists, and leaders of sophisticated organized-
crime and fraud networks. Specifically, OIA's mission is to secure the 
return of fugitives from abroad and to request evidence and other 
assistance from foreign partners for U.S. criminal investigations and 
prosecutions. OIA also ensures that the United States meets its 
reciprocal obligations to assist foreign partners with fugitives and 
evidence located in the United States.
    The U.S. implements bilateral Mutual Legal Assistance Treaties 
(MLATs) and multilateral agreements that provide for mutual assistance 
with over 100 foreign partners. And the globalization of crime has led 
to a dramatic increase in the number of MLAT requests, most 
significantly in requests for electronic evidence. Since fiscal year 
2000, the number of requests for assistance from foreign authorities 
handled by OIA has increased nearly 85 percent, and the number of 
requests for computer records has increased over 1,000 percent. This 
explosion in requests is partly due to the growth in cybercrime and 
partly due to the increasing use of electronic evidence in a broad 
spectrum of cases.
    OIA initiated a reform of the MLAT process, beginning with 
development of a new framework anchored by a three-component strategy: 
(1) centralization, (2) training and outreach, and (3) reducing the 
backlog. In terms of centralization, OIA has established a Cyber Unit 
(dedicated to reviewing, analyzing, and executing foreign requests for 
electronic evidence) and the Incoming MLAT Unit (dedicated to 
reviewing, analyzing, and executing foreign requests for bank and third 
party records) in the District of Columbia. Further efforts toward 
centralization, enabled by hiring permanent resources in the form of 
attorneys and professional staff for these Units, will significantly 
expand our ability to address the ever-increasing caseload.
    In addition to the changes implemented by OIA the FBI has 
established a dedicated unit to support the centralization, 
streamlining, and expedition of the Department's response to foreign 
MLAT requests. This unit supports the intake, tracking and management 
of MLAT requests that require FBI support, and filter evidence 
associated with MLAT requests, training of FBI Legal Attaches (Legats) 
and foreign counterparts, and outreach to Internet service providers. 
This unit also supports the efforts of OIA to enhance the U.S. 
Government's ability to respond to MLAT requests in an efficient 
manner.
    Moreover, training our foreign counterparts, particularly those 
using different legal systems, continues to be critical to improving 
the MLAT process. Many foreign partners require assistance in 
formulating requests that contain sufficient information to meet 
demanding U.S. legal standards for production of evidence, especially 
the content of communications. With additional resources, OIA would 
encourage foreign governments to empower their MLAT ``Central 
Authorities'' (or equivalents) to screen their own requests for 
evidence located in the U.S. The quality of the requests received 
should improve which would result in faster processing times.
    Finally, additional resources are needed to address the current 
backlog of pending MLAT requests that will not be processed by the 
Cyber or Incoming MLAT Units. These additional personnel will not only 
handle any existing backlog, but will also take on new MLAT and 
extradition requests, and some will be dedicated to supporting the 
necessary operation of OIA, including legislative and policy 
development, litigation, and management.
    The complexity of its national security mission has required OIA to 
reorganize, improve business processes and procedures, and hire and 
train additional personnel to conduct legal analysis and litigation. 
Centralization is designed to create greater efficiencies with new 
dedicated units charged with the execution of foreign requests seeking 
electronic and other evidence. The growth of transnational crime and 
national security threats will continue to challenge OIA's capacity to 
respond to the increased demand for its service.
    In May 2015, a one-time transfer of funds helped initiate these 
required improvements and has resulted in a positive impact in the near 
term; however, long-term solutions require additional funding to 
sustain and continue to build upon the progress made. The fiscal year 
2017 President's budget requests an enhancement of $10 million to 
provide base funding for the 64 positions that are being filled with 
the one-time transfer funding, and for an additional of 33 positions to 
more fully support the MLAT reform as described above.
                                 ______
                                 
             Questions Submitted by Senator James Lankford
    Question 1. Will this funding be used for States and localities and 
modernize their systems to move from paper to electronic submissions, 
or will it be used for something else?
    Lead-in information from original document.--
          The fiscal year 2017 budget request calls for $50,000,000 for 
        grants to States to upgrade criminal and mental health records 
        for the National Instant Criminal Background Check System 
        (NICS).

    Answer. Modernizing systems from paper to electronic submissions is 
one of many purposes of the requested $50 million for the National 
Criminal History Improvement Program (NCHIP). Other enhancements are 
needed to State databases and systems such as:

    1.  Computerized Criminal History (CCH) Systems--the backbone of 
the State's criminal history record repository.
    2.  Automated Fingerprint Identification Systems (AFIS)--a critical 
system that is necessary for the rapid transmission of electronic 
fingerprints to the FBI systems.
    3.  Operational back-up systems for use in the event of failure of 
the primary criminal history record system to ensure access to critical 
criminal justice data at all times.
    4.  Statewide integrated system strategies which interface all 
components of the criminal justice system, including law enforcement, 
prosecutors, courts, and corrections, to the extent that such 
expenditures improve the availability of criminal record data including 
protection orders.
    5.  Digitization and cataloging of old fingerprint records.
    6.  Upgraded security and firewalls systems to ensure compatibility 
with FBI CJIS security policies.
    7.  Interfaces with National Incident-Based Reporting System 
(NIBRS). Funds can be used to interface with any State system which is 
compatible with NIBRS for purposes of identifying convicted of crimes 
against children, the elderly, or the disabled, and/or identification 
of records involving firearm crimes for operation or research purposes.

    Additionally, NCHIP funds can support the following:

    1.  State participation in the FBI's Next Generation Identification 
(NGI) program.
         a.  NGI, developed over multiple years, is an incremental 
        replacement of the FBI's Integrated Automated Fingerprint 
        Identification System (IAFIS). The capabilities of NGI expand 
        the collection, storage, and search of biometrics beyond the 
        traditional 10-print images. One component, in addition to 
        supporting efforts to expand the capture and submission of 
        mugshots and palm prints, is ``rap back.'' A ``rap back'' or 
        ``hit notice'' program informs a law enforcement/criminal 
        justice agency, an employer, or other designated entity of the 
        arrest of an individual whose fingerprints have been retained 
        by the criminal history repository as a result of a 
        fingerprint-based background check. The fingerprints are 
        matched against a database that contains the fingerprints that 
        were initially submitted, and the designated entity is notified 
        of the individual's arrest.
         b.  Livescan technology replacement to ensure the majority of 
        persons fingerprinted at the local level are electronically 
        captured and automatically submitted and linked to the arrest 
        charge.
    2.  Full State participation in the Interstate Identification Index 
(III), the National Crime Prevention and Privacy Compact (Compact) and 
the National Fingerprint File (NFF) which increase the interstate 
accessibility and timeliness of criminal history records.
         a.  Funds are used to research and link court dispositions to 
        arrests and fingerprints (but not all records requiring 
        research and update are firearm disqualifying histories).
         b.  Synchronizing State-held and FBI-held records. There are 
        instances of records bring held at the State level, but not 
        being available within the III. The FBI offers a 
        synchronization process to State entities as a way to ensure 
        that arrests held in State criminal history repositories are 
        likewise available at the national level within the III. Funds 
        are used to identify the non-synced records and make them 
        available through III. Another important data quality service 
        that the FBI utilizes is known as a pointer process. State 
        entities can elect to choose whether they prefer for their 
        State-held record to respond to inquiries into the III or the 
        FBI-held record (in essence which record does the system point 
        to as the primary response). Funding can be utilized to ensure 
        that the most complete, up-to-date and accurate record responds 
        to incoming III inquiries.
         c.  Ensure proper sealing and expunction (deletion) of 
        records.
         d.  Funds may be used to cover costs associated with State 
        review and enactment of the Compact and with development and 
        implementation of procedures (including purchase of equipment 
        and development of software) necessary to facilitate operations 
        pursuant to Compact protocols, including efforts relating to 
        participation in the FBI's National Fingerprint File (NFF).
         e.  NCHIP funds can be used for States to develop and 
        implement the necessary system components to become an NFF 
        State. NFF is a system and procedures designed as a component 
        of the III system, which when fully implemented, becomes a 
        totally decentralized system for the interstate exchange of 
        criminal history records.
    3.  Criminal history record audits, data quality assessments, and 
training.
         a.  NCHIP funds all States to conduct periodic audits to 
        identify discrepancies in records, fingerprinting, and 
        disposition information maintained by the local submitting 
        agency and the central repository. Through auditing and 
        training, criminal history auditors assist in updating and 
        automating case outcomes in States records and the FBI's 
        systems.
         b.  NCHIP funds are also used for training and participation 
        in seminars and meetings. Limited funds may be used to cover 
        costs of training and participation in State, regional, or 
        national seminars or conferences (including travel, where 
        necessary).

    Question 2. What response have you received from States so far, and 
have you received any commitments from any States indicating that they 
take steps to submit additional records into the NICS Index?
    Lead-in information from original document.--
          As part of his announced Executive actions on firearms, the 
        President indicated that you wrote a letter to States 
        highlighting the importance of receiving complete criminal 
        history records and criminal dispositions, information on 
        persons disqualified for mental health reasons, and qualifying 
        crimes of domestic violence.

    Answer. The Office of Justice Program's Bureau of Justice 
Statistics (BJS) continues to work closely with the Federal Bureau of 
Investigation (FBI) and the Bureau of Alcohol, Tobacco, Firearms and 
Explosives (ATF) to assist States in improving their participation in 
the National Instant Criminal Background Check System (NICS) Index. 
Tremendous progress has been made in records added to the NICS Index 
mental health file in particular. There are still several States that 
are not actively pursuing implementation of a relief program for the 
mental health prohibitor; however, the majority of these States are 
still providing records to the NICS Index with National Criminal 
History Improvement Program (NCHIP) funding or other Federal funding, 
or through existing State resources. (States are not required to have a 
relief program in place in order to submit records to the NICS Index. 
The relief program is a requirement in order to qualify for funding 
under the NICS Act Record Improvement Program (NARIP).) Additionally, 
States continue to make available criminal history records identifying 
felonies and misdemeanor convictions for domestic violence as well as 
active warrants and protection orders.
    Currently 29 States have a mental health relief from disabilities 
program that is certified by ATF and qualify for funding under NARIP. 
Those States are Alabama, Alaska, Arizona, Delaware, Florida, Hawaii, 
Idaho, Illinois, Indiana, Iowa, Kansas, Kentucky, Louisiana, Maryland, 
Missouri, Nebraska, Nevada, New Jersey, New York, North Dakota, 
Oklahoma, Oregon, South Carolina, Tennessee, Texas, Utah, Virginia, 
West Virginia, and Wisconsin.
    Colorado and North Carolina have enacted legislation that would 
qualify for certification, but have not submitted a certification form 
for approval by ATF. Additionally, Connecticut's 2011 certification is 
no longer considered qualified or approved by ATF due to 2013 changes 
in the State's mental health law. Connecticut will have to reapply to 
ATF for approval. BJS is aware of at least one other State that is 
pursuing implementation of a relief program and has sought guidance 
from ATF.
    In support of the publication of NICS Index participation by State/
contributor on March 18, 2016, the FBI NICS Section held two 
teleconferences with State Point of Contact agencies and CJIS Systems 
Officers in January 2016 and March 2016. During these calls, the NICS 
Section explained the NICS Index statistics and answered specific 
questions from the States. The calls focused on explaining the numbers 
and preparing States to answer questions they may receive. The States 
were provided access to the detailed listing of December 31, 2015 NICS 
Index statistics in January 2016 in order to provide adequate time for 
their own review of their data.
    Several States have contacted the FBI NICS Section with questions 
related to their own State statistics. BJS also participated on the 
March 2016 calls to discuss the grant funding opportunities available 
to improve record reporting to NICS.
    As a result of the on-going conversations between the FBI NICS 
Section and the States, the following has occurred:

  --Puerto Rico inquired about submitting mental health records to the 
        NICS Index;
  --Hawaii prepared their own press release regarding their statistics;
  --Indiana discovered a data entry error which prevented felonies from 
        being entered into the NICS Index. Once resolved, Indiana 
        submitted almost 180,000 records into the NICS Index. Indiana 
        also developed a Web site in support of publication of the NICS 
        Index statistics;
  --Multiple agencies have requested a spreadsheet containing all of 
        their submissions to ensure their data corresponds to the data 
        located in the NICS Index. This is a service the NICS Section 
        has always offered to submitting agencies;
  --New Mexico has shown interest in submitting records more frequently 
        to the NICS Index;
  --Maine has discussed providing records for other categories in 
        addition to Felony and Mental Health; and
  --Since the HIPAA regulation change effective on February 5, 2016, 
        Montana has discussed potential NICS Index participation.

    Question 3. If we have databases that have essentially the same 
information, other than one may have incomplete records, is there a 
need to maintain three separate databases--the Interstate 
Identification Index, the NICS Index and the National Crime Information 
Center (NCIC)--or could they be consolidated?
    Lead-in information from original document.--
          Madame Attorney General, when we last spoke, I asked about 
        the lack of records in the NICS Index, specifically felonies. 
        It is my understanding that felonies should be entered in the 
        Interstate Identification Index (III), but if required 
        information is lacking to enter the record in III, the 
        incomplete record could be entered into the NICS Index instead.

    Answer. All three databases contain separate fields and data and 
are used for different purposes. It is only for firearm background 
checks that all three are used in conjunction. The Interstate 
Identification Index (III) houses criminal history information, which 
is available to all law enforcement, but many of the records in III are 
missing final dispositions and require additional research. The NICS 
Index is a repository of records, maintained by the NICS Section, that 
are Federal or State disqualifying records that do not appear in any 
databases searched by the NICS. Records within the NICS Index are 
utilized only for firearm and explosives purposes by authorized law 
enforcement agencies. NCIC is accessed by law enforcement for warrants, 
protection orders, and missing persons. The NCIC database should be 
kept separate to immediately receive actionable information.

    Question 4. Do you believe Congress has a responsibility to conduct 
oversight of the Department of Justice, and that the Department has a 
responsibility to cooperate and be forthcoming with documents and other 
information when Congress conducts oversight over the Department?
    Lead-in information from original document.--
          Under the current court order, the Department must turn over 
        Fast and Furious documents by April 8th.

    Answer. Congressional oversight plays an important role in 
Government transparency. The Department seeks to accommodate the needs 
of congressional oversight committees, consistent with the Department's 
law enforcement responsibilities.

    Question 5. Do you agree that the Department, in 2011, provided 
false or misleading information to the House Oversight and Government 
Reform Committee and since then has obstructed the Committee's Fast and 
Furious investigation of the Department?

    Answer. The Department acknowledged that it had provided incorrect 
information about Operation Fast and Furious and corrected that 
information. Consistent with the Department's law enforcement 
responsibilities, the Department has worked with the House Oversight 
and Government Reform Committee to accommodate its information needs.

    Question 6. How many open beds does the Bureau of Prisons (BOP) 
currently have?

    Answer. Capacity utilization within BOP varies by security level 
and facility. At the minimum security level, BOP currently has 17,579 
inmates in 7 facilities with a capacity of 19,105. At the low security 
level, BOP currently has 40,943 inmates in 31 facilities, with a 
capacity of 33,727. At the medium security level, BOP currently has 
53,638 inmates in 47 facilities, with a capacity of 42,753. At the high 
security level, BOP currently has 20,810 inmates in 17 facilities, with 
a capacity of 14,825. At these overall levels, BOP facilities are 
currently overcrowded at the following rates: low = 21 percent, medium 
= 25 percent, high = 40 percent. After USP Yazoo City and Thomson are 
fully activated, the high security overcrowding rate would drop to 21 
percent.

    Question 7. For those inmates released from BOP custody as a result 
of actions taken by the Sentencing Commission or the President's 
clemency authority, how many are considered to be non-violent 
offenders? How many of those, if any, who were released as non-violent 
offenders, originally plead down to a lesser charge from a violent 
crime charge?

    Answer. The Department does not collect in a readily available form 
charges originally brought but that were later dropped as part of a 
plea agreement. The analysis required to determine non-violent 
offenders and those who may have pled down to a lesser charge would 
require extensive resource allocation and man-hours to conduct. Even 
upon conducting a review, the Department may not be able to accurately 
assess these categories since it would rely on the review of every case 
individually via each Pre-Sentencing Report (PSR) or Statement of 
Reasons (SOR), which may or may not contain necessary information to 
make a determination on other charges.
    Executive Clemency cases are decided solely by the President. A 
list of pardons and commutations granted by the President can be found 
here: https://www.justice.gov/pardon/clemencyrecipients. This list 
includes the name of the offender, the offense, district and date of 
sentencing, the sentence, and the terms of the grant of pardon or 
commutation.
    As to offenders who received reduced sentences as a result of the 
retroactive guideline reductions in 2007, 2011, and 2014, the 
Sentencing Commission collects and reports data on its Web site on the 
characteristics of such offenders. The reports are available here: 
http://www.ussc.gov/research-and-publications/retroactivity-
analyses-and-data- reports/retroactivity-analyses-and-data-reports. The 
Commission has also done a thorough study of recidivism among those who 
received a retroactive sentence reduction under the 2007 amendment, 
which can be located here: http://www.ussc.gov/sites/default/files/pdf/
research-and-publications/research-projects-and- surveys/miscellaneous/
20140527_Recidivism_2007_Crack_Cocaine_Amendment.
pdf. In addition, an extensive report about the impact of the Fair 
Sentencing Act of 2010 can be located here: http://www.ussc.gov/news/
congressional-testimony-and-reports/drug-topics/report-impact-fair-
sentencing-act-2010. For Amendment 782 (drug guideline amendment) 
cases, the U.S. Sentencing Commission's 2014 Drug Guidelines Amendment 
Retroactivity Data Report is available here: (http://www.ussc.gov/
sites/default/files/pdf/research-and-publications/retroactivity-
analyses/drug-guidelines-amendment/20151203-drug-amendment-report.pdf).

    Question 8a. How are the new enforcement groups different from 
current interdiction taskforces working across the country?
    Lead-in information from original document.--
          The fiscal year 2017 budget requests 42 positions (including 
        32 Special Agents and 4 Intelligence Analysts) at the Drug 
        Enforcement Administration (DEA) and $12,483,000 for increased 
        heroin-related enforcement efforts, including 4 new enforcement 
        groups.

    Answer. While there are complex issues affecting spikes in heroin 
use and overdoses, including prescription drug abuse, the same 
significant poly-drug trafficking organizations responsible for other 
illicit drug threats are also responsible for the vast majority of the 
heroin supply. The composition of the requested heroin groups would 
mirror that of existing groups with the Special Agent and Intelligence 
Analyst resources increasing DEA's focus on heroin. Two chemists are 
also requested to support the new groups. Chemist support for this 
initiative is critical, as the backlog of evidence awaiting analysis 
has reached historically high levels, and the two chemists requested 
will ensure that the anticipated increase in heroin seizures will not 
exacerbate the backlog problem. Additionally, DEA has requested over $3 
million in operational funding devoted specifically to heroin 
investigations. This funding is significantly greater than the average 
operational funding for enforcement groups and will allow DEA to target 
the heroin threat more aggressively, increase the size/scope of the 
investigations, and address the threat regionally. These aggressive 
heroin enforcement actions will also support the Department's efforts 
to combat violent crime as drug trafficking has a proven linkage to 
gangs and other violent criminal organizations.

    Question 8b. How are the existing taskforces being evaluated for 
effectiveness?
    Lead-in information from original document.--
          The fiscal year 2017 budget requests 42 positions (including 
        32 Special Agents and 4 Intelligence Analysts) at the Drug 
        Enforcement Administration (DEA) and $12,483,000 for increased 
        heroin-related enforcement efforts, including 4 new enforcement 
        groups.

    Answer. DEA uses its task forces as a force multiplier in carrying 
out DEA's mission. DEA-led task forces are made up of multiple Federal, 
State and local law enforcement agencies within a specific region. They 
facilitate investigations by enhancing interagency coordination and 
intelligence sharing, leveraging Federal resources, and combining DEA 
expertise with local officers' investigative talents and knowledge of 
their respective jurisdictions.
    DEA Task Force Officers (TFOs) are well versed and practiced in the 
local judicial systems and their support has been critical and timely 
with respect to serving warrants and assisting with the identification 
and seizure of assets that may not have been identified solely by DEA.
    The partnership with State and local personnel also allows DEA 
access to additional resources. TFOs allow for: (1) close alliances 
with State and local agencies; (2) the use of platforms for 
surveillance assets (pole cameras and, in many locations, radio systems 
and frequencies); (3) access to city facilities and equipment as well 
as events, meetings, and conferences with a criminal justice agenda; 
and, (4) access to local and State intelligence databases to include 
drug databases, gang information, and local identifiers of significant 
drug trafficking areas.
    DEA measures the effectiveness of all its law enforcement 
initiatives, which generally include the broad integration of TFOs, by 
the overall impact they have on major international, national and 
regional Drug Trafficking Organizations. DEA implemented its Priority 
Targeting program in April 2001 to identify, target, investigate, and 
disrupt or dismantle those international, national, regional, and local 
impact drug trafficking and/or money laundering organizations having a 
significant impact on drug availability within the United States. DEA 
domestic field divisions (including task forces located within those 
field division areas of responsibility) identify and target major drug 
threats known as Priority Targets. Specifically, DEA domestic field 
divisions focus their investigative efforts on Priority Targets with a 
direct connection to the Department of Justice's (DOJ) Consolidated 
Priority Organization Targets (CPOT), which include the most 
significant international command and control organizations threatening 
the United States as identified by the Organized Crime Drug Enforcement 
Task Force (OCDETF) member agencies. Two of DEA's drug related 
performance measures under DOJ's Strategic Goal 2 relate to Priority 
Targets:

  --PTOs Linked to CPOTS Disrupted or Dismantled. In fiscal year 2015, 
        DEA disrupted 169 and dismantled 132 PTOs linked to CPOT 
        targets.
  --PTOs not Linked to CPOTS Disrupted or Dismantled. In fiscal year 
        2015, DEA disrupted 846 and dismantled 743 PTOs not linked to 
        CPOT targets.

                          SUBCOMMITTEE RECESS

    Senator Shelby. The subcommittee now stands in recess until 
Thursday, March 3, at 10:30 a.m., when we will take the 
testimony of Department of Commerce Secretary Penny Pritzker.
    The committee is adjourned.
    [Whereupon, at 12:14 p.m., Thursday, February 25, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Thursday, March 3.]


                                APPENDIX

                              ----------                              


                   MATERIALS SUBMITTED FOR THE RECORD


                            


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
